DEPARTMENT CRITICAL INFRASTRUCTURE
 PROTECTION IMPLEMENTING PLANS TO
PROTECT CYBER-BASED INFRASTRUCTURE

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division
           Audit Report 04-05
            November 2003
  DEPARTMENT CRITICAL INFRASTRUCTURE PROTECTION
    IMPLEMENTING PLANS TO PROTECT CYBER-BASED
                 INFRASTRUCTURE


                            EXECUTIVE SUMMARY

      The Department of Justice (Department) and other government
departments and agencies are required to prepare and implement plans for
protecting critical infrastructure. The infrastructure includes systems
essential to the minimum operations of the economy and government, such
as telecommunications, banking and finance, energy, and transportation.
According to the Critical Infrastructure Assurance Office’s (CIAO)
National Plan for Information Systems Protection, the threat is that a group
or nation hostile to the United States will seek to "inflict economic damage,
disruption and death, and degradation of our defense response" by attacking
our critical infrastructure.1 Critical infrastructure protection plans are
required to include an inventory of the Department's mission-essential
assets, an assessment of each asset's vulnerabilities, and plans to remediate
those vulnerabilities.

       In May 1998, Presidential Decision Directive 63 (PDD 63) required all
federal agencies to achieve and maintain the ability to protect the nation’s
critical infrastructures from intentional acts that would significantly diminish
their ability to perform essential national security missions and ensure
general public health and safety. Achieving and maintaining this ability is
referred to as “full operating capability.” PDD 63 required the Department to
reach full operating capability by May 2003.

        The National Plan for Information Systems Protection, Version 1.0,
issued by the CIAO in 2000, describes full operating capability as the ability
to ensure that any interruption or manipulation of critical functions is
“. . . brief, infrequent, manageable, geographically isolated, and minimally
detrimental to the welfare of the United States.” Further, the Draft Critical
Infrastructure Protection (CIP) Plan indicates that full operating capability for
the Department is comprised of:



      1
           The CIAO was created in May 1998 to coordinate the federal government’s
initiatives on infrastructure assurance.




                                           -i-
   •   identifying the Minimum Essential Infrastructure (MEI) and
       interdependencies and identifying and addressing their vulnerabilities,2

   •   detecting attacks and unauthorized intrusions,

   •   sharing attack warning and information in a secure and timely manner,
       and

   •   responding to attacks and reconstituting and recovering assets that
       were subject to attacks.

      The Department of Justice Office of the Inspector General (OIG)
previously audited the adequacy of the Department's planning and
assessment activities for protecting its critical computer-based
infrastructure. Over 20 Inspectors General conducted similar audits of their
own agencies as part of an effort sponsored by the President's Council on
Integrity and Efficiency (PCIE). Our November 2000 report noted that the
Department had submitted its initial critical infrastructure protection plan to
the CIAO as required, and the Department had revised its initial plan
according to comments received from an Expert Review Team. However, we
concluded that the Department had not yet: 1) adequately identified all of
its mission-essential assets, 2) assessed the vulnerabilities of each of its
assets, 3) developed remedial action plans for identified vulnerabilities, and
4) developed a multi-year funding plan for reducing vulnerabilities. As a
result, the Department's ability to perform certain vital missions was at risk
from terrorist attacks or similar threats.

      Our current audit of critical infrastructure protection is a continuation
of the executive branch-wide effort by the PCIE. We, along with other OIGs,
who are conducting similar audits, focused on the adequacy of
implementation activities for protecting critical computer-based
infrastructures. Specifically, we reviewed Department activities in the areas
of: risk mitigation; emergency management; interagency coordination;
resource and organization requirements; the recruitment, education of
Information Technology (IT) personnel; and computer security awareness.
In addition, we reviewed follow-up activities undertaken with regard to the
recommendations of our November 2000 report and found that the
       2
            The MEI is the framework of critical organizations, personnel, systems, and
facilities that are absolutely required in order to provide the inputs and outputs necessary to
support the core processes essential to accomplishing an organization’s core mission as
those missions relate to national security, national economic security, or continuity of
government services.




                                            - ii -
Department has made progress in the implementation of its CIP Plans, but
much significant work remains to be done.

Background

       Within the Department, the Justice Management Division (JMD)
develops, promulgates, and reviews implementation of departmentwide
policies, standards, and procedures for the management of automated
information processing resources. Within JMD, the Chief Information Officer
(CIO) has oversight responsibility for CIP for the Department. Within the
Office of the CIO, the Information Technology Security Staff (ITSS) has
primary responsibility for critical infrastructure planning and
implementation.3

       In May 2003, the CIO reorganized the information resource
management function. At that time, the ITSS was established, and it is now
responsible for developing and implementing policies and procedures for
information systems security programs. Prior to the reorganization, these
functions were managed by the Information Management and Security Staff
(IMSS). Upon its establishment, the ITSS retained the prior staff and
oversight responsibilities of the IMSS. The ITSS also gained responsibility
from JMD Computer Services Staff (CSS) for managing the Department of
Justice Computer Emergency Response Team (DOJCERT). The DOJCERT
assists component organizations with incident handling and resolution, and it
is the centralized reporting entity for the Department. All components are
required to report computer security incidents to the DOJCERT and the
DOJCERT issues any necessary alerts to components and external agencies.

      Within the Department, critical infrastructure protection is a shared
responsibility between JMD and the various component organizations. Each
component is responsible for identifying its MEI, assessing vulnerabilities,
developing remediation and funding plans, and ensuring the implementation
of the plans. JMD is responsible for coordinating the departmentwide effort
and ensuring that the components comply with applicable requirements.

       3
          Prior to September 11, 2002, JMD Security and Emergency Planning Staff had
oversight of IT security for the classified systems of the Department, while the CIO’s
Information Management and Security Staff had oversight for the sensitive but unclassified
systems. After September 11, 2002, the CIO is responsible for overseeing and implementing
security policy and practices for both classified and sensitive but unclassified systems. The
standards, procedures, and guidelines are coordinated with the Department’s Security
Officer.




                                           - iii -
Risk Mitigation

       The Department is required to conduct vulnerability assessments to
identify risks to its critical infrastructure. After the vulnerability
assessments, remedial action plans are required to mitigate the exploitation
of risks until the vulnerabilities are eliminated or reduced to an acceptable
level. The remedial action plans should be system specific and should
identify the vulnerability, responsible office, mission impact, mitigation
action, long-term correction, and estimated costs and milestones for
corrective measures.

      JMD completed a vulnerability assessment in March 2002. JMD
reviewed the management controls developed to implement the
Department’s CIP program and evaluated the controls against requirements
contained in reports and other documents from the
General Accounting Office, the National Critical Infrastructure Assurance
Office, and the General Services Administration. The JMD review identified
the following four individual vulnerabilities associated with the program.

   1. The CIP Plan needed to be updated to incorporate the implementation
      plan and the Department’s new Strategic Plan.

   2. The inventory of mission-essential assets required revalidation by
      components after the events of September 11, 2001.

   3. JMD needed to address the risk of not meeting the full operating
      capability date of May 2003.

   4. Seven of the mission-essential systems required an independent
      certification and accreditation.

       As previously mentioned, the National Plan for Information Systems
Protection, Version 1.0, issued by the CIAO describes full operating
capability as the ability to ensure that any interruption or manipulation of
critical functions is “brief, infrequent, manageable, geographically isolated,
and minimally detrimental to the welfare of the United States.” Several
items remain to be completed before the Department can reach full
operating capability. In July 2002, IMSS officials indicated that mitigation
action for all program vulnerabilities was progressing on target and would be
completed on schedule. However, we found that the IMSS did not
effectively manage the mitigation actions because it did not provide
components sufficient time to provide required data to revalidate the MEI.


                                    - iv -
       Another item we found that prevented the Department from reaching
full operating capability was that project plans were not developed to ensure
full operating capability by May 2003. In April 2003, we updated our
assessment of progress by the IMSS/ITSS and found that project plans had
been completed and included in the revised draft CIP Plan. However, those
plans did not include completion dates for all tasks, and 54 of 73 tasks were
not completed by May 2003. However, in our judgment four key tasks
prevent the Department from achieving full operating capability. The four
tasks are:

   •   development of contingency plans for systems without plans or
       revision of inadequate plans,

   •   testing of the contingency plans,

   •   incorporation of vulnerabilities into the Security and Management
       Reporting Tool (SMART) database for tracking purposes,4 and

   •   development of a SMART database for classified systems.

      As a result of these tasks not being completed timely, the Department
has less than adequate assurance that critical IT asset vulnerabilities will be
mitigated adequately or timely.

Emergency Management

      The Department’s April 1999 CIP Plan established the critical elements
for an effective emergency management program and charged a CIP
Task Force with its implementation.5 The Department’s emergency
management program, as envisioned in the CIP Plan, was to incorporate the
elements of Indications and Warnings; Incident Collection, Reporting, and
Analysis; and Response and Contingency Plans.



       4
          The SMART database is a set of user interface, database management, and
business intelligence tools designed to assist the Department CIO and program managers as
well as the security administrators in identifying, controlling, and monitoring the
performance of a component’s IT security program and its IT systems.
       5
           The CIP Task Force was comprised of representatives from law enforcement,
litigating divisions, and administrative offices.




                                          -v-
       Regarding Indications and Warnings, the plan intended to establish an
effective and secure mechanism for: a) receiving threat indication and
warning information from the intelligence community and law enforcement
agencies concerning the critical infrastructure of the Department and the
nation, and b) disseminating this information in a timely manner to
appropriate Department components. The IMSS was to ensure the existence
of secure, effective, and timely communication channels for passing threat
information from internal and external organizations to Department
components at both headquarters and field locations charged with the
protection of the Department’s critical infrastructure assets.

       Regarding Incident Collection, Reporting, and Analysis, the Plan
intended to define and establish an effective and secure mechanism for
collecting, reporting, and analyzing incident information about actual and
potential attacks on the Department’s critical infrastructure assets. The
established method should have ensured that information generated from
computer security incidents was received from Department components and
disseminated throughout the Department and to other intelligence and law
enforcement agencies, as appropriate, in a timely manner.

      Regarding Response and Contingency Plans, the Plan intended to
define and establish sound response and contingency plans to ensure the
Department’s critical infrastructure assets could be restored to the minimum
operational effectiveness necessary to support the Department’s missions
should these critical infrastructure assets be subjected to successful attack.
Response plans identify actions for responding to a significant infrastructure
attack while the attack is underway. Contingency plans identify actions
required to rebuild or restore an infrastructure after it has been damaged.
The CIP Plan required that response and contingency plans should be
prepared, reviewed, and approved by Department officials, and be exercised
on a periodic basis to ensure that the plans can be effectively implemented.

       The CIP Plan also established several intermediate milestones for
implementing the three essential elements of the Department’s emergency
management program. Full implementation of the program was to occur no
later than September 28, 1999.

     Although the April 1999 CIP Plan contained a comprehensive blueprint
and milestones for an effective, centrally managed Department emergency
management program, we found that such a program was not fully
implemented. Many of the critical emergency management program
elements relating to indications and warnings, incident collection, reporting



                                    - vi -
and analysis, and response and contingency planning were neither
established nor operating.

       Communication channels were established for passing threat
information, but the IMSS did not determine whether the channels were
secure, effective, and provided timely information as required by the
CIP Plan. Additionally, the IMSS did not verify whether effective liaisons
with the FBI’s National Infrastructure Protection Center or the Strategic
Information Operations Center were established and ongoing. Unless all
indication and warning elements are in place, the Department does not have
the assurance that communication channels for sharing vulnerabilities are
secure and that components are receiving timely information to better equip
it to respond to computer security incidents.6

      Detailed procedures for the components to follow in reporting
computer security incidents were developed by the CSS, but the IMSS could
not substantiate whether the procedures were implemented and were being
followed by components. According to the IMSS staff, tabulated summaries
on the number and type of incidents are reported each month. However,
the IMSS could not provide tabulated summaries regarding the nature,
frequency, category, and remediation of prior Department computer security
incidents or possible trends and potential systemic weaknesses based on
analyses of prior incidents. Although there is no specific requirement that
the IMSS maintain documentation for these activities, without such
documentation the Department does not have assurance that additional
procedures for collecting and analyzing incidents as required by the CIP Plan
were developed and are in place.

      We also found that detailed response procedures for computer security
incidents had been established, but the IMSS had not ensured that the
procedures were implemented and were being followed. Specifically, the
IMSS did not verify whether components had developed, implemented, and
maintained internal incident response procedures and whether components
had identified appropriate individuals responsible for reporting incidents to
the DOJCERT.

      Department Order 2640.2D requires components to develop and test
contingency plans as well as site plans detailing responses to emergencies


      6
        An incident is an occurrence that has been assessed as having an adverse effect on
the security or performance of an information system.




                                          - vii -
for IT facilities, but the IMSS staff could not provide support that
components had done so.

       The CIP Task Force was responsible for developing and implementing
the CIP Plan, including the emergency management program, but the
Task Force ceased operating during calendar year 2000 and has had no
further involvement in implementation activities. IMSS officials told the OIG
that other activities are operating within the Department to mitigate the
activities not performed by the CIP Task Force. As noted previously, we
found weaknesses in the Department’s emergency management. As a
result, the Department has less than adequate assurance that it can
effectively respond to computer attacks and security incidents.

Interagency Coordination

        There are two primary objectives for establishing effective interagency
coordination relating to CIP. First, the CIP Plan requires the Department to
establish and maintain effective liaisons with entities proposing and
promulgating security measures and plans relating to CIP. Doing so ensures
that the Department receives the most up-to-date information for protecting
its critical IT asset systems. Second, the CIP Plan requires the Department
to establish and maintain effective liaisons with all entities for which
Department IT systems either receive or provide critical data supporting
national security, national economic security, and/or crucial public health
and safety activities. All Department IT systems either receiving or
providing such information must be identified and included in the
Department’s MEI as critical IT assets and receive the special protection
afforded under the CIP program.

       Although the CIP Plan contained comprehensive requirements for
implementing an effective interagency coordination program, as detailed
below, such a program has not been established within the Department.
IMSS officials did not ensure that components’ headquarters and field offices
developed lists of current federal and interagency liaisons and memoranda of
understanding associated with CIP. The Department did not establish a
method for ensuring coordination between the various Department entities
and liaisons with outside organizations related to critical infrastructure
protection. Components did not forward to the IMSS lists of liaisons and
relationships. Consequently, the centralized database of liaisons and
relationships was not created and maintained, nor was any entity within the
Department serving as the focal point for all liaisons and relationships
pertaining to CIP. A working group, or other means of communication, was



                                     - viii -
not established to ensure that information is effectively shared between
Department components having interagency relationships and liaisons.

     Without such a program for interagency coordination, the Department
cannot ensure that information will be accessible from Department assets
when needed.

Resource and Organizational Requirements

       The Department’s CIP Plan required identification of the resources and
organization necessary to protect critical assets. This was to be
accomplished largely through the efforts of the CIP Task Force. Although we
found that the CIP Task Force did not fully carry out the responsibilities in
this area of the CIP Plan, the Department has undertaken some efforts to
ensure its resource and organizational requirements are adequately
identified. However, full implementation of the CIP Plan has not been
achieved. Studies contracted for by JMD done in lieu of studies by the CIP
Task Force have not assessed the linkage between budgetary and personnel
shortfalls and the Department’s critical infrastructure weaknesses. We
concluded that completion of this activity is crucial to the Department’s
efforts to ensure that its resource and organization requirements have been
met.

Recruiting, Educating, and Awareness

      The Department’s 1999 CIP Plan recognized the need to recruit, retain,
and educate both Department and contractor personnel in the areas of
physical and information security. The Plan called for the completion of
various programs to ensure that these needs were met. Some of these
programs have been fully accomplished. For example, on April 15, 2003,
the Department implemented a departmentwide initiative to provide
computer security awareness training. However, we found that the
recruitment and retention program called for in the Plan was not fully
implemented and, as a consequence, the Department lacks assurance that it
has been able to attract and retain the best possible CIP staff.

Follow-up on Prior Audit

      In our November 2000 report on “Department Critical Infrastructure
Protection – Planning for the Protection of Computer Based Infrastructure,”
we found that the Department had not yet: 1) identified all of its
mission-essential assets, 2) assessed the vulnerabilities of each critical
asset, 3) developed remedial action plans for identified vulnerabilities, or


                                    - ix -
4) developed a multi-year funding plan for reducing vulnerabilities. During
this current audit, we tested follow-up actions taken regarding these
recommendations. We found that the IMSS had completed some of the
required corrective actions. However, further work is required regarding the
MEI inventory, plans to address weaknesses identified in vulnerability
assessments, and development of a multi-year funding plan for the
remediation of vulnerabilities.

Summary

       By May 2003 all federal agencies were required to achieve and
maintain the ability to protect our nation’s critical infrastructures from
intentional acts that would significantly diminish their ability to perform
essential national security missions and ensure general public health and
safety. While the Department has activities planned and in-progress to help
it reach this full operating capability, some of those plans lack completion
dates. Absent those dates, there is no assurance that the Department will
ever reach full operating capability. As described above, the Department did
not reach full operating capability by May 2003 as required, and as a
consequence the Department’s critical infrastructures remain at risk.

Recommendations

      Our Report contains 26 recommendations to help improve the
Department’s efforts to manage critical infrastructure protection. These
include recommending that the Department:

  •   develop a risk mitigation tracking system for the inventory of classified
      mission-essential infrastructure systems;

  •   develop a multi-year funding plan based on resources required to
      mitigate vulnerabilities as identified in the Plans of Actions and
      Milestones;

  •   develop contingency plans for all critical IT assets;

  •   test contingency plans periodically as required by Department Order
      2640.2D;

  •   compile a list of links, relationships, and contacts with other federal
      agencies and other entities (foreign governments, state and local
      agencies, and the private sector); and



                                      -x-
•   contact external entities to determine whether any Department assets
    are critical to their missions.




                                 - xi -
                               TABLE OF CONTENTS


BACKGROUND .................................................................................... 1
               A. The Department’s Management of Critical Information
                     Technology Assets ................................................ 3
               B. Framework for Assessing Adequacy of CIP Program... 5
               C. Prior Office of the Inspector General Reports ............ 8
               D. General Accounting Office Reports ........................ 10

FINDINGS AND RECOMMENDATIONS ................................................... 12

FINDING 1: ESTABLISHING A RISK MITIGATION PROGRAM ................... 12
               A. Vulnerability Assessments and Risk
                   Mitigation.......................................................... 12
               B. Progress Toward Mitigating Program
                   Vulnerabilities .................................................... 14
               C. Progress Toward Mitigating Critical IT Asset
                   Vulnerabilities .................................................... 23
               D. Conclusions ....................................................... 32
               E. Recommendations .............................................. 33

FINDING 2: ESTABLISHING AN EMERGENCY MANAGEMENT PROGRAM .... 35
               A. Department Efforts to Establish an Emergency
                   Management Program for the Protection of Critical
                   Infrastructure Assets .......................................... 35
               B. Implementation of the Emergency Management
                   Program ........................................................... 37
               C. Overall Causes for and Effect of Not Fully
                   Implementing an Emergency Management Plan ...... 46
               D. Conclusions ....................................................... 46
               E. Recommendations .............................................. 48

FINDING 3: ESTABLISHING AN EFFECTIVE INTERAGENCY
COORDINATION PROGRAM ................................................................. 50
               A. Importance of Establishing an Effective
                   Interagency Coordination Program........................ 50
               B. CIP Plan Requirements for Establishing an
                   Effective Interagency Coordination Program ........... 51
               C. An Interagency Coordination Program as
                   Envisioned in the CIP Plan Was Not Implemented ... 52
               D. Reasons Why an Effective Interagency
                   Coordination Program Was Never Established......... 52
                    E.   Conclusions ....................................................... 58
                    F.   Recommendations .............................................. 59

FINDING 4: MEETING DEPARTMENT RESOURCE AND
ORGANIZATIONAL REQUIREMENTS ..................................................... 60
              A. Requirement in the CIP Plan ................................ 60
              B. Implementation of the CIP Plan for Resource and
                  Organizational Requirements .............................. 61
              C. Recommendation ............................................... 63

FINDING 5: ESTABLISHING EFFECTIVE RECRUITING, EDUCATING
AND AWARENESS PROGRAMS............................................................. 64
               A. Planned Programs .............................................. 64
               B. Recruitment ..................................................... 65
               C. Education and Training........................................ 65
               D. Awareness ........................................................ 66
               E. Recommendation ............................................... 67

FINDING 6: FOLLOW-UP ON THE PRIOR OIG AUDIT OF DEPARTMENT
CRITICAL INFRASTRUCTURE PLANNING FOR THE PROTECTION OF
COMPUTER BASED INFRASTRUCTURE .................................................. 68
               A. Inventory the Department’s MEI........................... 69
               B. Complete Vulnerability Assessments of the
                  Department’s MEI by December 31, 2000 .............. 69
               C. Remedial Plans to Address Weaknesses Identified
                  by the Vulnerability Assessments.......................... 70
               D. Multi-Year Funding Plan for the Remediation
                  of Vulnerabilities ................................................ 70

APPENDIX 1        OBJECTIVES, SCOPE, AND METHODOLOGY .................... 71

APPENDIX 2        ABBREVIATIONS AND ACRONYMS................................. 73

APPENDIX 3        STATEMENT ON COMPLIANCE WITH LAWS AND
                  REGULATIONS ........................................................... 75

APPENDIX 4        STATEMENT ON MANAGEMENT CONTROLS..................... 76

APPENDIX 5        DEPARTMENT OF JUSTICE’S COMPUTER-BASED
                  MINIMUM ESSENTIAL INFRASTRUCTURES...................... 77

APPENDIX 6        CRITICAL ASSET DESCRIPTIONS .................................. 78
APPENDIX 7    PCIE/ECIE DESCRIPTION ............................................. 83

APPENDIX 8    THE TWELVE CRITICAL IT ASSET VULNERABILITIES ........ 84

APPENDIX 9    FLOW OF INFORMATION WITH THE DEPARTMENT OF
              STATE AND US CUSTOMS ............................................ 90

APPENDIX 10   DEPARTMENT ENTITIES THAT HAD CIP TASK FORCE
              MEMBERS.................................................................. 91

APPENDIX 11   JMD’S RESPONSE TO THE DRAFT REPORT ...................... 92

APPENDIX 12   OIG, AUDIT DIVISION ANALYSES AND SUMMARY OF
              ACTIONS NECESSARY TO CLOSE REPORT .....................101
                                   BACKGROUND

      According to the July 2002 Office of Homeland Security’s,
“National Strategy for Homeland Security,” terrorists may seek to cause
widespread disruption and damage, including casualties, by attacking
electronic and computer networks which are linked to other critical
infrastructures. Terrorist groups exploit new information technology and the
Internet to plan attacks, raise funds, spread propaganda, collect information,
and communicate securely. Cyber attacks are anticipated to become an
increasingly significant threat as terrorists further develop their technical
capabilities and become more familiar with potential targets.

       The February 2003 Office of Homeland Security’s National Strategy to
Secure Cyberspace indicates that a spectrum of malicious actors can and do
conduct attacks against our critical information infrastructures.7 Of primary
concern is the threat of organized cyber attacks capable of causing
debilitating disruption to the nation’s critical infrastructures, economy, or
national security. The required technical sophistication to carry out such an
attack is high and partially explains the lack of a debilitating attack to date.
However, there have been instances where attackers have exploited
vulnerabilities that may be indicative of more destructive capabilities.

        According to the National Plan for Information Systems Protection, the
threat is that a group or nation hostile to the United States will seek to
"inflict economic damage, disruption and death, and degradation of our
defense response" by attacking our critical infrastructure. Presidential
Decision Directive 63 (PDD 63) requires that the Department of Justice’s
(Department) critical infrastructure protection plans include an inventory of
the Department's mission-essential assets, an assessment of each asset's
vulnerabilities, and plans to remediate those vulnerabilities.

       The terrorist attacks of September 11, 2001, prompted the
Attorney General to make counterterrorism the Department’s highest
priority. The Department reflected this new priority in its Strategic Plan for
Fiscal Years 2001 – 2006, which was issued in November 2001. In the
Strategic Plan, the Attorney General recognized that in the fight against
terrorism, the Department would need to improve the integrity and security
of computer systems and make more effective use of information
technology.



       7
           On March 1, 2003, the Department of Homeland Security (DHS) was created, and
all of the functions and duties of the Office of Homeland Security were transferred to it. The
National Strategy to Secure Cyberspace is an implementing component of the National
Strategy of Homeland Security.

                                            -1-
       PDD 63 issued in May 1998 called for a national effort to assure the
security of the nation’s critical infrastructure. The critical infrastructure
consists of physical and computer-based systems essential to the minimum
operations of the economy and government. This includes, but is not limited
to telecommunications, banking and finance, energy, transportation, and
essential government services. The minimum essential infrastructure (MEI)
is the framework of critical organizations, personnel, systems, and facilities
that are absolutely required in order to provide the inputs and outputs
necessary to support the core processes essential to accomplishing an
organization’s core mission as they relate to national security, national
economic security, or continuity of government services.

       PDD 63 requires that agencies take measures to eliminate any
significant vulnerability to both physical and cyber attacks on the nation’s
critical infrastructures. Each federal department and agency was required to
prepare a plan for protecting its own critical infrastructure, including an
inventory of the department’s or agency’s mission-essential assets and an
assessment of the vulnerabilities of those essential assets.

       Under PDD 63, by December 2000 departments and agencies were to
have assessed information system vulnerabilities and adopted a multi-year
funding plan to remedy the vulnerabilities. By May 2003, departments and
agencies were to have achieved “full operating capability.” The National Plan
for Information Systems Protection, Version 1.0, issued by the Critical
Infrastructure Assurance Office (CIAO), describes full operating capability as
the ability to ensure that any interruption or manipulation of critical
functions is “brief, infrequent, manageable, geographically isolated, and
minimally detrimental to the welfare of the United States.” The Draft Critical
Infrastructure Protection (CIP) Plan indicates that full operating capability for
the Department is comprised of:

   •   identifying the MEI, interdependencies, vulnerabilities, and developing
       plans to address the vulnerabilities;

   •   detecting attacks and unauthorized intrusions;

   •   sharing attack warning and information in a secure and timely
       manner; and

   •   responding to attacks, and reconstituting and recovering assets that
       were subject to attacks.




                                      -2-
A. The Department’s Management of Critical Information Technology
   Assets

      The Justice Management Division (JMD) develops, promulgates, and
reviews implementation of departmentwide policies, standards, and
procedures for the management of automated information processing
resources. Within JMD, the Chief Information Officer (CIO) has oversight
responsibility for the implementation of CIP within the Department. Within
the Office of the CIO, the Information Technology Security Staff (ITSS) has
primary responsibility for critical infrastructure planning and
implementation.8

       The ITSS was established within the Office of the CIO in May 2003,
and its 14-member staff is responsible for developing and implementing
policies and procedures for IT investment management and information
systems security programs. Prior to May 2003 the responsibilities now
managed by the ITSS were managed by the IMSS. With the change of
name in May 2003, the ITSS retained the prior staff of the IMSS and the
prior IMSS’s responsibilities for oversight of the CIP program. In addition,
the ITSS gained responsibility from JMD Computer Services Staff (CSS) for
managing the Department of Justice Computer Emergency Response Team
(DOJCERT). The DOJCERT assists component organizations with incident
handling and resolution, and it is the centralized reporting entity for the
Department. All components are required to report incidents to the
DOJCERT. The DOJCERT issues any necessary alerts to components and
external agencies.

      Within the Department, critical infrastructure protection is a shared
responsibility among JMD and various component organizations. Each
component aids the IMSS in identifying its MEI, developing remediation and
funding plans, and ensuring the implementation of the plans. JMD is
responsible for coordinating the departmentwide effort and ensuring that the
components comply with applicable requirements.

      In our November 2000 report on “Department Critical Infrastructure
Protection – Planning for the Protection of Computer Based Infrastructure,”
we stated that as required by PDD 63, JMD submitted the Department’s

      8
          Prior to September 11, 2002, JMD Security and Emergency Planning Staff (SEPS)
had oversight for information technology (IT) security for the classified systems of the
Department and Information Management and Security Staff (IMSS) had oversight for the
sensitive but unclassified (SBU) systems. Since that time, the CIO is responsible for
overseeing and implementing security policy and practices for both National Security
Information (NSI) and SBU systems. The standards, procedures, and guidelines are
coordinated with the Department’s Security Officer.



                                          -3-
initial critical infrastructure plan to the CIAO in November 1998 (November
1998 Plan). In January 1999, the Expert Review Team returned the results
of its review and asked the Department to revise the plan accordingly.9 The
Department addressed some of the Expert Review Team’s comments and
submitted its revised plan to the CIAO in April 1999.

      In response to the Department’s new priorities following
September 11, 2001, JMD made changes in its strategic priorities and
business practices. Among these changes, JMD issued guidance that there
would be an equal emphasis on the protection of critical assets, whether
physical, personnel, or cyber-based. A revalidated MEI was completed
December 2002. The revalidation process incorporated the change in
emphasis on physical assets and personnel, a 72-hour loss criteria
developed by the CIAO, and changes in the goals and strategic objectives in
the Department’s Strategic Plan.

      The Department’s MEI has evolved over time as a result of policy
changes and JMD’s refinement of its inventory of critical assets. The
December 2002 version of the MEI consists of 21 systems from three
Department components – the Drug Enforcement Agency (DEA), Federal
Bureau of Investigation (FBI), and JMD. By contrast, the January 2001
version of the MEI consisted of 20 systems from those same components
and the Immigration and Naturalization Service (INS). Both inventories are
contained in Appendix 5 of this report. When the MEI was revalidated in
December 2002, eight assets were removed from the January 2001 version,
and nine others were added. During the period of our review, the IMSS, at
various times, had CIP oversight responsibilities for 29 critical assets.10




       9
          PDD 63 created an interagency Expert Review Team. The Expert Review Team
reviewed and commented on agency plans in accordance with a set of essential plan
elements to ensure quality, continuity, and effective implementation of agency plans to
protect critical infrastructures.
       10
           During the course of our audit, the Bureau of Alcohol, Tobacco, Firearms, and
Explosives (ATF) joined the Department of Justice and the INS transferred to the DHS. The
CIP efforts that we evaluated did not include any CIP efforts associated with the ATF, except
as noted on page 23.



                                           -4-
B. Framework for Assessing Adequacy of CIP Program

       In 1999 the President’s Council on Integrity and Efficiency (PCIE)
initiated a governmentwide review of the nation’s critical infrastructure
assurance program.11 The review is being completed in four phases. The
objective of the Phase 1 review was to assess the adequacy of the agency
planning and assessment activities for protecting critical cyber-based
infrastructures. The objective of Phase 2 was to assess the adequacy of
agency implementation activities for protecting their critical cyber-based
infrastructure. In Phase 3 we assessed the adequacy of agency planning
and assessment activities for protecting the Department’s critical noncyber-
based infrastructures. The objective of Phase 4 will be to assess the
adequacy of implementation activities for protecting noncyber-based
infrastructures. In the Department, we previously completed audits for
Phases 1 and 3.12 This audit is performed as part of Phase 2 of the PCIE
effort.

       During Phase 1, we reviewed the adequacy of Department plans, asset
identification efforts, and initial vulnerability assessments. Over
20 Inspectors General conducted similar audits in their own agencies as part
of an effort sponsored by the PCIE. The Phase 1 report, issued November
2000, stated that the Department had submitted its initial critical
infrastructure protection plan to the CIAO as required. The Phase 1 report
also stated that the Department revised its initial plan according to
comments received from an Expert Review Team.

      Our Phase 1 audit assessed the Department’s compliance with the
following requirements:

   •   development of a CIP Plan;

   •   Expert Review Team Review;

   •   appointment of a Chief Infrastructure Assurance Officer;

   •   identification of cyber-based MEI;


       11
          The PCIE, comprising all Presidentially-appointed Inspectors General, coordinates
interagency and intra-entity audit, inspections, and investigations dealing with
governmentwide issues of waste, fraud, and abuse. See Appendix 7 for more details on the
PCIE.
       12
         The PCIE/ECIE (Executive Council on Integrity and Efficiency) delayed the Phase 2
Review until after Phase 3 to allow agencies sufficient time to implement their CIP
programs.

                                           -5-
   •   vulnerability assessments;

   •   risk mitigation plans to stem potential damage from each vulnerability;

   •   establishment of an emergency management program;

   •   incorporation of critical infrastructure into strategic planning and the
       performance measurement framework;

   •   identification of resource and organizational requirements;

   •   development of a program to ensure that the Department has the
       personnel and skills necessary to implement a sound infrastructure
       protection program; and

   •   establishment of effective CIP coordination with other applicable
       entities (foreign, state and local governments, and private industry).

       Asset identification efforts are the Department’s measures employed
to identify its MEI. The Department’s CIP Plan indicated that the
methodology to identify its MEI was to create a rank-ordered list of assets
including a brief description of the asset, location, specific mission-based
criteria used to identify the asset, estimated replacement costs, planned life
cycle, and a brief statement as to the potential impact of the asset not being
available.

      A vulnerability assessment is a systematic examination of the ability of
a system or application, including current security procedures and controls,
to withstand assault. Agencies use vulnerability assessments to identify
weaknesses that could be exploited and to predict the effectiveness of
additional security measures in protecting critical assets from attack. The
outcome of the assessment is a list of flaws or omissions in controls that
may affect the integrity, confidentiality, accountability, and availability of
resources that are essential to critical assets.

       In Phase 2 of the governmentwide PCIE review, the subject of this
report, we audited the adequacy of implementation activities for protecting
critical cyber-based infrastructures. Specifically, we assessed the adequacy
of agency activities in the following areas: 1) risk mitigation;
2) emergency management; 3) interagency coordination; 4) resource and
organizational requirements; and 5) recruitment, education, and awareness.

      Risk mitigation involves the selection and implementation of security
controls to reduce risk to a level acceptable to management. Risk mitigation
follows the Department’s identification of critical assets and performance of

                                       -6-
a vulnerability assessment that identifies weaknesses that could be
exploited.

      The goal of the emergency management program is to minimize the
known vulnerabilities associated with the most critical asset and
infrastructure dependencies in an expeditious and cost-effective manner,
and to permit the operations of critical functions in the event of disruptions.
The emergency management program should include such items as
indications and warnings (of an attack), incident collection, reporting and
analysis, response and continuity-of-operation plans, and plans to
reconstitute minimum required capabilities following a successful attack.

       Interagency coordination is important because many federal
government programs rely on the resources of other government agencies
to fulfill their missions. Because of such reliance, the Department should
identify and characterize the level to which Department assets provide
support to other government agencies. Additionally, it is necessary to
identify liaisons, and the nature of the coordination link between the entities.

       Recruitment refers to the Department’s efforts to acquire highly skilled
information technology (IT) security personnel to implement the CIP
program. Education, training, and awareness are also necessary to the
successful implementation of any information security program. These three
elements are related, but the elements involve distinctly different levels of
learning. Training is geared to understanding the security aspects of the
particular IT systems and applications that the individual uses. Education
differs from training in both breadth and depth of knowledge and skills
acquired. Security education, including formal courses and certification
programs, is most appropriate for an organization’s designated security
specialists. Awareness is not training but is a prerequisite to it. The
purpose of an awareness program is to focus attention on security.
Awareness provides a baseline of security knowledge for all users, regardless
of job duties or position.

        In our Phase 3 report, issued November 2001, we reviewed the
adequacy of the Department’s planning and assessment activities for
protecting its critical noncyber-based infrastructures. Specifically, we
assessed the adequacy of agency plans, asset identification efforts, and
initial vulnerability assessments of personnel and physical assets. The
report indicated that the Department had not yet: 1) adequately identified
all of its mission essential assets, 2) assessed the vulnerabilities of each of
its systems, 3) developed remedial action plans for identified vulnerabilities,
and 4) developed a multi-year funding plan for reducing vulnerabilities.

       Phase 4, if pursued, will target the adequacy of implementation
activities for protecting critical noncyber-based infrastructures. Specifically,
                                      -7-
it will review the adequacy of agency activities in the following areas: risk
mitigation; emergency management; interagency coordination; resource and
organizational requirements; and recruitment, education and awareness.

C. Prior Office of the Inspector General Reports

      We have recently performed two types of audits relevant to the
Department’s management of critical infrastructure. These audits are:
1) program audits of JMD’s CIP management efforts and 2) computer
security audits performed pursuant to the Government Information Security
Reform Act (GISRA).13

1. Program Audits

      In our November 2000 report on “Department Critical Infrastructure
Protection – Planning for the Protection of Computer Based Infrastructure,”
we found that the Department had not yet: 1) identified adequately all of its
mission-essential assets, 2) assessed the vulnerabilities of each critical
asset, 3) developed remedial action plans for identified vulnerabilities, and
4) developed a multi-year funding plan for reducing vulnerabilities. As a
result, the Department’s ability to perform certain vital missions was at risk
from terrorist attacks or similar threats.

      Specifically, the Department’s identification of mission-essential assets
did not meet the intent of PDD 63 because it did not include personnel,
interdependencies, and a complete list of facilities. Further, the
methodology used did not link the MEI to those Department missions
absolutely necessary to national security, national economic security, or the
continuity of government services, and it did not document the criteria used
to select each asset.

      Additionally, in our November 2000 report, we noted that the
Department decided not to fund an adequate vulnerability assessment. The
vulnerability assessment included in a draft plan differed from the
assessment plan in the previous version. The draft plan was based on a
framework sponsored by the CIAO and reviewed by the Expert Review
Team, two organizations outside of the Department with responsibility for
implementing PDD 63. The revised vulnerability assessment was based on a
review of past audits, compliance reviews, and assessments. As a result,
the Department had not developed an inventory of flaws or omissions in

      13
          Beginning in November 2000, GISRA required the Office of the Inspector General
(OIG) to perform independent evaluations of the Department’s information security program
and practices. Beginning in FY 2003, these audits are now being conducted under the
provisions of Federal Information Security Management Act of 2002.



                                         -8-
controls (vulnerabilities) that may affect the integrity, confidentiality,
accountability, and availability of resources that are essential to critical
assets.14 Department officials said that vulnerability assessments would be
performed as part of a certification and accreditation (C&A) process as
ordered by the Assistant Attorney General for Administration.15

      In our November 2001 report on “Department Critical Infrastructure
Protection – Planning for the Protection of Physical Infrastructure,” we found
that the Department had not yet: 1) adequately identified its physical MEI,
2) ensured that complete vulnerability assessments of all of its physical
mission-essential assets have been performed, 3) developed plans to
remediate weaknesses identified in the vulnerability assessments of its
physical MEI, and 4) developed a multi-year funding plan for reducing
vulnerabilities. While the Department initially disagreed with the results of
this audit, in May 2003 JMD agreed to carry out the recommended corrective
action.

2. GISRA Audits16

      For FY 2001, we audited the security of four classified and five SBU
computer systems. We issued two separate reports consolidating our
results, one for unclassified systems and one for classified systems.17 The
report on SBU systems was issued without recommendations. Both reports
stated that the Department did not adequately:

   •   identify and assess risks to determine needed security measures,


       14
          In Finding 6 of this report, we provide an assessment of JMD’s corrective actions
with regard to the findings of our November 2000 report.
       15
          Certification consists of a technical evaluation of a sensitive application to see how
well it meets security requirements. Accreditation is the official management authorization
for the operation of the application and is based on the certification process as well as other
management considerations.
       16
           In fulfilling its FY 2002 GISRA review requirements, the OIG reported on both
classified and SBU systems in its “Independent Evaluation Pursuant to the Government
Information Security Reform Act Fiscal Year 2002 Consolidated Report,” Report Number
03-19. The report is a classified document and has not been released publicly.
       17
          The report for the unclassified systems is “Summary of the Independent
Evaluation Pursuant to the Government Information Security Reform Act, Fiscal Year 2001
Sensitive But Unclassified Systems,” Report Number 02-18. The report for the classified
systems is “Summary of the Independent Evaluation Pursuant to the Government
Information Security Reform Act, Fiscal Year 2001 Classified Systems,” Report Number
02-21.



                                             -9-
  •   establish and implement policies and controls to meet those needs,

  •   promote awareness so that users understand the risks and the related
      policies and controls required to mitigate them, or

  •   monitor and evaluate established policies and controls to ensure that
      the policies and procedures were both appropriate and effective.

Three of the five SBU systems tested had one or more of the following
vulnerabilities related to contingency planning.

  •   Restoration priorities were not identified and an interagency
      agreement did not exist for the alternative processing site.

  •   Contingency plans were not properly reviewed or approved.

  •   Contingency plans were not tested.

  •   Contingency plan training was not conducted.

D. General Accounting Office Reports

      The General Accounting Office (GAO) has conducted several reviews of
CIP-related efforts within the government. The following reports are among
its most recent in areas related to CIP.

       In a January 2003 report titled “Protecting Information Systems
Supporting the Federal Government and the Nation’s Critical Infrastructures”
(GAO-03-121), the GAO noted cyber CIP as a high-risk area because, in
part, terrorist groups and others have stated their intentions of attacking
critical infrastructures. Failure to adequately protect these infrastructures
could adversely affect national security, economic security, and/or public
health and safety. The GAO acknowledged that improvements are
underway. The GAO reported that recent audits of 24 of the largest
agencies continue to identify significant information security weaknesses
that put critical federal operations and assets in each of these agencies at
risk.

       In an October 2001 report titled “Information Sharing – Practices that
Can Benefit Critical Infrastructure Protection” (GAO-02-24), the GAO noted
that information sharing and coordination among organizations are central to
producing comprehensive and practical approaches and solutions to
combating computer-based threats. The GAO indicated that trust is the
essential underlying element to successful information-sharing relationships.
The GAO identified three other critical factors for successful information-
sharing relationships:
                                    - 10 -
  •   establishing effective and appropriately secure communication
      mechanisms (such as regular meetings and secure websites),

  •   obtaining support of senior managers at member organizations
      regarding the sharing of potentially sensitive member information and
      the commitment of resources, and

  •   ensuring organization leadership continuity.

      The GAO noted that one of the most difficult challenges was
overcoming organizations’ initial reluctance to share information. Other
challenges included: 1) developing agreements on the use and protection of
shared information, 2) obtaining adequate funding to cover the cost of items
such as websites and meetings while avoiding seeking contributions intended
primarily to promote the interests of an individual organization,
3) maintaining a focus on emerging issues of interest to members, and
4) maintaining professional and administrative staff with appropriate skills.




                                    - 11 -
                  FINDINGS AND RECOMMENDATIONS

1. ESTABLISHING A RISK MITIGATION PROGRAM

       Our audit found that the IMSS had not established an effective
       risk mitigation program.18 Regarding identified CIP program
       vulnerabilities, IMSS staff indicated that mitigation actions were
       progressing on schedule; however, we found that the IMSS did
       not effectively manage the mitigation actions in that project
       plans lacked key milestone dates and the IMSS did not provide
       components sufficient time to provide required data for the
       revalidation of the MEI. Regarding the mitigation of critical IT
       system vulnerabilities, we found that progress plans to ensure
       correction of identified security weaknesses were not adequately
       prepared by the components to allow effective monitoring by the
       IMSS. This problem occurred because of the short time given to
       the components to respond and because the components did not
       adequately respond to data requested by the IMSS for mitigation
       plans. As a result, the Department has less than adequate
       assurance that critical IT asset vulnerabilities will be mitigated
       adequately or timely.

A. Vulnerability Assessments and Risk Mitigation

       The purpose of the vulnerability assessment is to provide the
Department’s Chief Infrastructure Assurance Officer with an overall
assessment of the CIP program and the vulnerabilities associated with its
critical IT system assets.19 The Department’s critical IT assets as they relate
to CIP are also referred to as the Department’s MEI.

       The vulnerability assessment identifies the risks and vulnerabilities to
the Department’s CIP program and its MEI systems and makes
recommendations to mitigate the identified risks. In addition, the funding
level associated with IT security for each MEI asset and the overall program
funding level are identified. This allows the Department’s CIO to make
informed decisions in support of the Department’s ability to execute its

       18
           In May 2003, the CIO reorganized the information resource management function
of the Office of the Chief Information Officer. The IMSS was renamed the Information
Technology Security Staff (ITSS).
       19
          The Chief Infrastructure Assurance Officer is responsible for the protection of all
aspects of that department’s critical infrastructure other than information assurance. The
CIO is responsible for information assurance. PDD 63 requires these officials to establish
procedures for obtaining expedient and valid authorities to allow vulnerability assessments
to be performed on government computer and physical systems.

                                            - 12 -
mission and goals as those decisions relate to critical infrastructure
protection.

      Upon completion of the vulnerability assessment, the Department
components develop remedial action plans to mitigate the exploitation and
the impact of any identified vulnerabilities against critical infrastructure
assets until such time as the vulnerability can either be eliminated or
reduced to an acceptable level. Remediation refers to those precautionary
actions taken before undesirable events occur to reduce known deficiencies
and weaknesses that could cause an outage or compromise a law
enforcement infrastructure sector or critical asset. The precautions are
applicable regardless of whether those events are acts of nature, technology,
or through malicious intent. Remediation may include education and
awareness, operational process or procedural change, system configuration
changes, or system component changes.

      The remedial action plan should be system specific and at a minimum
contain the following information:

   •   responsible office,

   •   identification of vulnerability,

   •   mission impact,

   •   mitigation action,

   •   long-term correction, and

   •   estimated cost and milestones for recommended corrective measures.

      Initially, a CIP Task Force was scheduled to complete the Department
Vulnerability Assessment by December 30, 1999, with approval by the Chief
Infrastructure Assurance Officer on January 7, 2000.20 The IMSS staff could
not explain why the CIP Task Force stopped convening during calendar year
2000, and the Task Force took no further action to complete the vulnerability
assessments. JMD eventually completed the assessment in March 2002.
The completed vulnerability assessment identified a total of 16
vulnerabilities, 4 of which pertained to the Department’s overall CIP
program, while the remaining 12 addressed risks in the 20 information

       20
          The Department’s April 1999 CIP Plan provided that “A Critical Infrastructure
Protection Task Force (CIPTF) will be responsible for CIP Plan development and
implementation within their respective components . . . .” The CIP Task Force was
comprised of representatives from law enforcement, litigating divisions, and administrative
offices. See Appendix 10 for a list of points of contact for the CIPTF.

                                          - 13 -
technology systems identified in the Department’s January 2001 MEI. For
individual vulnerabilities, an associated risk rating and the mitigating action
for eliminating the vulnerability or reducing the risk of the vulnerability to an
acceptable level were identified.

      Our audit work disclosed that the IMSS did not establish an effective
Department risk mitigation program and that the IMSS’s efforts to monitor
mitigation actions were not effective. As a result, critical IT asset
vulnerabilities may not be adequately or timely mitigated. The specific
program and IT asset risk mitigation deficiencies we identified are discussed
in the report sections that follow.

B. Progress Toward Mitigating Program Vulnerabilities

       JMD completed a vulnerability assessment in March 2002. JMD
reviewed the management controls developed to implement the
Department’s CIP program and evaluated the controls against requirements
contained in reports and other documents from the GAO, the National
Critical Infrastructure Assurance Office, and the
General Services Administration (GSA). The JMD review identified four
individual vulnerabilities associated with the program. The vulnerabilities
are listed below and discussed in greater detail beginning in the following
text.

   1. The CIP Plan was out of date and needed to be updated to incorporate
      the implementation plan and the Department’s new Strategic Plan.

   2. The inventory of mission-essential assets required revalidation by
      components after the events of September 11, 2001.

   3. JMD needed to address the risk of not meeting the full operating
      capability date of May 2003.

   4. Seven of the mission-essential systems required an independent
      evaluation.

      Several items remain to be completed before the Department can
reach full operating capability. In July 2002, IMSS officials indicated that
mitigation action for all program vulnerabilities was progressing on target
and would be completed on schedule. Our audit work initially found that the
IMSS did not effectively manage the mitigation actions. Specifically, project
plans were not developed and followed, and the IMSS did not provide
components sufficient time to provide required data for the revalidation of
the MEI.



                                     - 14 -
      We assessed the April 2003 draft CIP plan for project plans. We found
that while the IMSS/ITSS had completed project plans, those plans did not
include milestone dates by which tasks were to be completed. Those plans
did not include completion dates for all tasks, and 54 of 73 tasks were not
completed by May 2003. However, in our judgment four key tasks prevent
the Department from achieving full operating capability. The four tasks are:

   •   development of contingency plans for systems without plans or
       revision of inadequate plans (discussed in further detail in finding 2),

   •   testing of the contingency plans (discussed in further detail in
       finding 2),

   •   incorporation of vulnerabilities into the Security Management and
       Report Tool (SMART) database for tracking purposes (discussed later
       within this finding),21 and

   •   development of a SMART database for classified systems (discussed
       later within this finding).

(1) Program Vulnerability #1: Outdated CIP Plan

      The March 2002 Vulnerability Assessment discussed the outdated CIP
Plan as follows.

Vulnerability:    The CIP Plan is out of date and needs to be updated to incorporate
                  the implementation plan and the Department’s new Strategic Plan.
      Threat:     All threats could exploit this vulnerability.
  Discussion:     The current plan is over two years old and does not contain current
                  information on the implementation of the Department’s protection
                  strategy. PDD 63 requires CIP Plans to be updated at least every
                  two years. Justice Management Division has an informal
                  implementation [plan] for the next phases of the protection
                  strategy, but has not incorporated this plan into the overall
                  Department CIP Plan.
 Risk Rating:     Low – Moderate
   Mitigation     JMD will update the CIP Plan and will ensure it is in compliance with
      Action:     the new Executive Orders and other Federal guidance on CIP. In
                  addition, the Plan will map the MEI assets to the Department’s new
                  Strategic Plan. Estimated completion: December 2002
       Source:   Justice Management Division’s March 2002 Vulnerability Assessment



       21
           The SMART database is a set of user interface, database management, and
business intelligence tools designed to assist the Department CIO and program managers as
well as the security administrators in identifying, controlling, and monitoring the
performance of a component IT security program and its systems.



                                            - 15 -
       The Department’s CIP Plan presents the broad direction for the
Department’s critical infrastructure assurance and provides the longer-range
goals, strategies, and performance indicators by which to measure progress
toward implementing a viable CIP program. Intended as a “living
document,” the CIP Plan provides a framework and continuing cycle of
activity for managing risk, developing security policies, assigning
responsibilities, and monitoring the adequacy of the Department’s physical
and cyber security controls. The Department’s initial CIP Plan was prepared
by JMD in November 1998. The Plan was revised in April 1999 to address
comments of prior reviews of the CIP program.

       The March 2002 Vulnerability Assessment identified that the CIP Plan
needed updating to incorporate the next phases of the protection strategy
and the Department’s new strategic plan. The IMSS staff informed us that
the task of updating the Plan was assigned to a contractor. The contractor
serves as an information technology security consultant to JMD and senior
Department managers. Some of the tasks performed by the contractor
relating to the Department’s vulnerability assessment include providing
general IT support to the IMSS, developing a comprehensive vulnerability
assessment methodology, and researching and reporting on various methods
of performing follow-up actions to ensure vulnerabilities or other issues
identified during the performance of vulnerability assessments have been
corrected. The contractor also performs other duties not related to the
vulnerability assessment such as assisting in data entry for the SMART
database.

      According to the March 2002 Vulnerability Assessment, the estimated
completion date for updating the Plan was December 2002. A Draft CIP Plan
was completed April 21, 2003, and finalization was pending comments
requested on the plan from the Department of Homeland Security (DHS).
IMSS officials indicated that they delayed completion of the new CIP Plan to
incorporate guidance from the DHS’s most recent draft of the
National Strategy to Secure Cyberspace.

(2) Program Vulnerability #2: Revalidating MEI Assets after Events
    of September 11, 2001

      The March 2002 Vulnerability Assessment discussed revalidating MEI
assets as follows.




                                   - 16 -
Vulnerability:   MEI assets should be revalidated after the events of September 11,
                 2001.
      Threat:    All threats could exploit this vulnerability.
  Discussion:    The Department’s MEI assets were determined prior to the events
                 of September 11, 2001. Although the Department did use the
                 methodology as defined by the CIAO’s office, the Department
                 should revalidate the MEI inventory with the components and
                 program managers to ensure all MEI assets are included and meet
                 the CIAO’s revised requirements. As an example, the CIAO
                 introduced a 72-hour time requirement on the availability of an IT
                 system; the system is not considered critical unless it’s non-
                 availability for 72 hours will prevent the Department from fulfilling
                 its PDD 63 missions. Additionally, the INS and FBI have identified
                 additional systems during the C&A process that have not been
                 assessed relating to CIP activities.
 Risk Rating:    Moderate
   Mitigation    JMD will explore the use of Project Matrix to assist the Department
      Action:    in revalidating the MEI systems and critical assets.22 If Project
                 Matrix is not used, JMD, using contractor support, will revalidate the
                 Department’s MEI IT assets. Justice Management Division will use
                 the same approved methodology for the revalidation as was used
                 for the initial selection of MEI along with new guidance identified by
                 the CIAO’s office. Estimated completion: November 2002
       Source: Justice Management Division’s March 2002 Vulnerability Assessment

        Crucial to developing and implementing a CIP Plan is the identification
of critical infrastructure assets. Within the Department, the critical
infrastructure is comprised of the computer systems, physical assets, and
personnel necessary for the Department to carry out its law enforcement
and counterterrorism duties. In identifying the Department’s critical
computer systems, the CIP Task Force focused on internal and external
critical infrastructure components that are needed to protect or support
safety and health, law enforcement and national security, the Department’s
litigation function, the administration of justice, and the Department’s
business functions. Once the Department’s critical infrastructure assets
were identified, the assets were listed in a consolidated MEI inventory.



       22
           Project Matrix is the name given to a method developed by the CIAO to assist
federal civilian departments and agencies to accomplish identification of critical functions
and services and the assets and links necessary to perform that identification. Project
Matrix provides an objective process to make the determination of national criticality by
performing standardized, systematic evaluation of an organization’s functions and services
and giving each a criticality score.

                                           - 17 -
      The Department’s MEI inventory was identified in a joint effort
between the components, SEPS, and IMSS using criteria based on guidance
from the CIAO. The identification of the Department’s minimum essential
infrastructure was completed and formally approved by the Assistant
Attorney General for Administration on January 16, 2001. The completed
inventory is comprised of three sections: 1) critical IT assets, 2) critical
physical assets, and 3) critical personnel assets. Prior to the INS transfer to
the DHS in March 2003, the MEI included 20 systems in the DEA, FBI, INS,
and JMD.

       Subsequent to the events of September 11, 2001, some requirements
for critical systems have been revised, and two components (the FBI and
INS) have identified additional systems that have not been assessed relative
to CIP activities. In view of these developments, JMD identified this as a
program vulnerability in its March 2002 Vulnerability Assessment.

       According to the March 2002 Vulnerability Assessment, the estimated
completion date for revalidating MEI assets was November 2002. The IMSS
staff indicated that progress toward the completion date was satisfactory,
and that components had a November 1, 2002, suspense date for submitting
their updated MEIs to JMD. On October 7, 2002, we asked the IMSS staff
for a copy of the memorandum to the components establishing the
November 1, 2002, suspense date. The Assistant Director of IMSS
responded by saying that the memorandum had not been sent and that the
draft was still on his desk. According to the contractor status reports, the
contractor had completed the draft by August 12, 2002. The IMSS staff said
the memorandum hadn’t been mailed because of a shortage of staff.
Although the memorandum was eventually sent to the components on
October 11, 2002, this was hardly sufficient time for the components to
update their MEIs and respond by the November 1, 2002, suspense date.

      The revalidated MEI was completed in December 2002. Both the old
and new MEI are contained in Appendix 5 of this report. Eight assets were
removed from the January 2001 MEI and an additional nine assets were
added. A description of the MEI assets is contained in Appendix 6. The
assets removed from the MEI were:

INS –       Central Index System (CIS)
            Enforcement Case Tracking System (ENFORCE)
            Automated Biometric Identification System (IDENT)
            Immigration and Naturalization Service’s
              Integrated National Communications System (INSINC)




                                     - 18 -
FBI –        Criminal Justice Information System Wide Area Network
               (CJIS WAN)
             InfraGard
             Intelligence Information System Network (IISNET)
             Secure Automated Messaging Network (SAMNET)

      The INS assets were removed in anticipation of the transfer of the INS
to the DHS. The FBI assets were removed based on a determination that
the loss of those assets for 72 hours would not impede the Department from
performing its critical infrastructure protection duties.

        The assets added to the MEI were:

DEA –        Centralized Data Intercept
             Electronic File Room
             Wide Area Network
             GESCAN
             Firebird nodes in Special Operations Division
               (SOD) and Command Center

FBI –        Key Asset Database
             Secure Radio System
             Digital Storm Collection

JMD –        Metropolitan Area Network (MAN)

      These assets were added to the MEI based on the revised
requirements for identifying critical systems.

(3) Program Vulnerability #3: Risk of Not Meeting Full Operating
    Capability by May 2003.

     The March 2002 Vulnerability Assessment discussed the risk of not
meeting full operating capability as follows.




                                        - 19 -
Vulnerability:     Risk of not meeting the Full Operating Capability date of May 2003.
      Threat:      All threats could exploit this vulnerability.
  Discussion:      PDD 63 requires that by May 2003 all Federal agencies achieve and
                   maintain the ability to protect our nation’s critical infrastructures
                   from intentional acts that would significantly diminish its abilities to
                   perform essential national security missions and ensure general
                   public health and safety. This is referred to as “full operating
                   capability” in PDD 63. Any interruptions of these functions must be
                   brief, infrequent, manageable, and minimally detrimental to the
                   welfare of the United States. To achieve the full operating
                   capability, the Department needs to be able to participate in
                   information/intelligence sharing, respond to attacks, or reconstitute
                   systems after successful attacks.
 Risk Rating:     Moderate
   Mitigation     JMD will Coordinate with the Department’s computer emergency
      Action:     response team and components with MEI systems to ensure they
                  have coordinated actions in the event of an attack. Justice
                  Management Division will also coordinate with the components to
                  ensure the contingency plans for critical IT assets are tested and
                  kept up to date. The Department must address the vulnerabilities
                  identified within the individual MEI system assets, and prioritize the
                  vulnerabilities with greatest risks to the Department. Estimated
                  completion: May 2003
       Source: Justice Management Division’s March 2002 Vulnerability Assessment

      By May 2003 all federal agencies were to achieve and maintain “full
operating capability” to protect our nation’s critical infrastructures from
intentional acts that would significantly diminish its abilities to perform
essential national security missions and ensure general public health and
safety. According to the Department’s March 2002 Vulnerability
Assessment, the estimated completion date for achieving full operating
capability was the same as the deadline identified in PDD 63, May 2003.

      Officials of the IMSS indicated that there are four main aspects to
attaining full operating capability:

   •    relocating the DOJCERT to the newly established ITSS,

   •    integrating the Department’s CIP Plan with the planning efforts of the
        National Infrastructure Protection Center (NIPC),23

   •    increasing the reporting of incidents of infrastructure attacks
        (as of October 2002, only the FBI reported incidents involving SBU
        systems), and

        23
           The National Infrastructure Protection Center serves as a national critical
infrastructure threat assessment, warning, vulnerability, and law enforcement investigation
and response entity.

                                              - 20 -
   •   completing an update to the CIP Plan.

      The National Plan for Information Systems Protection, Version 1.0,
issued by the CIAO, describes full operating capability as the ability to
ensure that any interruption or manipulation of critical functions is “brief,
infrequent, manageable, geographically isolated, and minimally detrimental
to the welfare of the United States.” The Draft CIP Plan indicates that full
operating capability for the Department is comprised of:

   •   identifying the MEI and interdependencies and identifying and
       addressing their vulnerabilities,

   •   detecting attacks and unauthorized intrusions,

   •   sharing attack warning and information in a secure and timely manner,
       and

   •   responding to attacks and reconstituting and recovering assets that
       were subject to attacks.

       In April and May 2003, we sought to update the Department’s status
in achieving full operating capability. In addressing vulnerabilities identified
for the MEI, we noted that the incorporation of vulnerabilities into the
SMART database for tracking purposes was incomplete since the database
was not set up to track vulnerabilities for classified systems. In assessing
the Department’s ability to reconstitute and recover assets after an attack,
we noted that there were no dates provided for the development of
contingency plans for components without plans nor were dates provided for
the revision of inadequate plans. Additionally, no further guidance was
provided to require testing of the contingency plans. Generally, the IMSS
staff could not provide the status of this effort, schedules, or milestone dates
for completing the effort.

       The Department did not reach full operating capability by May 2003 as
required. However, the Department has activities planned and in progress
to help it reach full operating capability. Some of those plans lack dates for
completion. Absent those dates, there is no assurance that the Department
will complete those activities timely or reach full operating capability.

(4) Program Vulnerability #4: Seven MEI Systems Have Not Been
    Independently Evaluated

      The March 2002 Vulnerability Assessment discussed independent
evaluation of MEI systems as follows.

                                     - 21 -
Vulnerability:   Seven of the MEI systems have not been independently evaluated
                 and contain unknown system vulnerabilities.
      Threat:    All threats could exploit this vulnerability.
  Discussion:    Of the 20 MEI systems, 7 have not received an independent
                 evaluation. The current assessments rely only on the program
                 manager’s assessment.
 Risk Rating:   Low
   Mitigation   JMD will conduct IV&V [independent verification and validation] or
      Action:   penetration testing for the systems that have not undergone any
                independent evaluation. Two of the FBI systems (SAMNET and
                InfraGard) will be evaluated by the FBI later this year [2002].
                Three systems [DEA Model 204 (M204), Integrated Automated
                Fingerprint ID System (IAFIS), and National Crime Information
                Center System, (NCIC 2000)] are currently undergoing IV&V, and
                the final two systems (ENFORCE, IDENT) will be scheduled for
                review in late 2002 along with the two FBI systems. Estimated
                completion date: January 2003
       Source: Justice Management Division’s March 2002 Vulnerability Assessment

      Department of Justice Order 2640.2D requires components to ensure
the C&A of all systems under their operational control prior to being placed
into operation. Until an IT system is certified and accredited, no operational
data can be used for any purpose, including testing in pilot systems if live
data is used or if the pilot system is connected to a Department network.

       For each classified system and for each SBU system the C&A includes:

   •   preparing a system security plan;

   •   performing a risk analysis to identify security risks, determine their
       magnitude, and identify areas needing safeguarding;

   •   conducting and documenting a system test and evaluation;

   •   developing a security procedures guide;

   •   preparing and testing a contingency plan;

   •   preparing a summary of compliance with the security requirements
       and the statement of residual risk; and

   •   preparing a security evaluation report with a recommendation as to
       whether or not to accredit the system based on documented residual
       risks.

      Once a Department component completes the C&A and its
documentation, the C&A is submitted to JMD for the IV&V process that is
contracted out to one of four contractors.
                                         - 22 -
        The March 2002 Vulnerability Assessment identified that of the
20 mission-essential information systems in the Department, 7 had not
received an IV&V as part of the C&A process. We found that the accuracy of
IMSS’s documented support of its monitoring efforts was questionable. An
initial status was documented in the March 2002 Vulnerability Assessment,
and again in an undated document that we were told was prepared in
October 2002. In the March 2002 Vulnerability Assessment, the FBI’s IAFIS
and NCIC 2000 systems were both reported as undergoing IV&V process;
however, in the previously mentioned undated document, both systems
were reported as still undergoing the initial certification and accreditation by
the FBI’s Security Division. As of May 2003, IAFIS and NCIC 2000 had not
undergone the IV&V process. Independent Verification and Validation is a
requirement of the certification and accreditation process.

      Further, the ATF transferred to the Department from the Department
of Treasury in January 2003. According to IMSS staff, ATF systems had
received interim certification, and full certification and accreditation of these
systems was expected to be completed by September 30, 2003. Critical
assets from the ATF had yet to be identified. As a consequence, a
vulnerability assessment, risk mitigation plans, and multi-year funding plans
had not been developed for critical assets of the ATF.

       Information Management and Security Staff officials were unable to
provide information on vulnerability assessments for the nine newly added
assets from non-ATF components to the MEI. According to IMSS officials,
their queries to components were not answered.

C. Progress Toward Mitigating Critical IT Asset Vulnerabilities

(1) Background on Critical IT Asset Vulnerabilities

       As previously stated, the March 2002 Vulnerability Assessment
identified 12 categories of vulnerabilities among the 20 IT systems
comprising the Department’s mission-essential inventory. Sources used to
identify the 12 information technology vulnerabilities included vulnerability
assessments submitted with the C&A packages, OIG system audits,
penetration testing, and results from the Department’s IV&V program.24
Based on guidance from the GSA, the vulnerability assessments focused on
common attack methods and publicly available cyber-attack methods. As


       24
          Penetration testing is security testing in which evaluators attempt to circumvent
the security features of a system based on their understanding of the system design and
implementation. The purpose of penetration testing is to identify methods of gaining access
to a system by using common tools and techniques developed by hackers.



                                          - 23 -
established in the CIP Plan, highly esoteric threats and attack methods are
to be deferred to the long-range implementation of the CIP program.

       Several of the vulnerabilities could potentially allow great harm to the
Department’s ability to perform its essential national security missions and
maintain order. JMD prioritized the vulnerabilities according to the potential
effect each was assessed to have on critical IT systems. Listed below are
the 12 IT asset vulnerabilities, which are further discussed in Appendix 8:

   •   lack of auditing features, audit trails, or policies and procedures;

   •   improper or inadequate password protection, password aging, and
       construction;

   •   lack of encryption;

   •   software patches not installed for known vulnerabilities;

   •   lack of, limited, or untested contingency plans;

   •   lack of computer security incident response capability;

   •   lack of access controls;

   •   lack of configuration management;

   •   lack of intrusion detection;

   •   lack of or inadequate virus protection;

   •   exploitable network services enabled; and

   •   lack of warning banners.

(2) Processes Used by the IMSS to Monitor Mitigation of the Critical
    IT Asset Vulnerabilities

      For the IMSS to track and manage components’ efforts to close
security performance gaps, components need to document and report
security weaknesses and progress of mitigation actions. Accordingly, in
August 2002, the IMSS notified each component to develop Plans of Actions
and Milestones (POA&Ms) to ensure identified security weaknesses are
corrected. All Department officials would use the POA&MS as the
authoritative agency management mechanism to prioritize, track, and
manage all agency efforts to close security performance gaps.

                                      - 24 -
      Because the Department’s POA&M was initially due to the Office of
Management and Budget (OMB) by October 1, 2002, the IMSS requested the
components to submit individual system and component summary POA&Ms
to the IMSS by September 13, 2002. In developing the POA&Ms,
components were requested to identify all security weaknesses; indicate how
weaknesses were identified (for example, CFO audits, penetration testing,
and self assessment); show corrective actions; estimate completion dates;
and identify resources required to remediate the IT system weaknesses.
Once the POA&Ms were received from components, IMSS staff would then
begin entering the data into the SMART database system.

       We were told by IMSS officials that they use the SMART database
system to monitor the status of the 12 IT asset vulnerabilities. The SMART
system is a set of user interface, database management, and business
intelligence tools designed to assist the Department CIO and program
managers, as well as the security administrators, in identifying, controlling,
and monitoring the performance of a component IT security program and its
IT systems. During FY 2003, the SMART system is gradually becoming
available to security analysts, administrators, and managers in all
Department components.

      Data pertaining to remediating IT asset vulnerabilities is entered into
the SMART system as it is received from the components. Data entered
includes all vulnerabilities identified, corrective actions taken or planned,
estimated completion dates, resources required to initiate corrective actions
in terms of time and dollars, and status (whether the corrective actions are
closed or open). Certain data entry fields such as estimated completion
dates, resources required, and actions closed are locked once the data is
entered.

       For SBU computer systems, IMSS officials indicated they had been
entering component IT asset vulnerability data into the SMART system since
April 2001. An IMSS official indicated that the POA&Ms have been received
and entered into the SMART system, but IMSS officials did not provide all of
the documentation that was requested regarding this effort. Specifically,
IMSS officials did not provide the POA&M from the FBI or SMART data for
systems for which the IMSS is tracking risk mitigation activity. Additionally,
beginning in January 2003 components were required to provide the IMSS
with quarterly updates on risk mitigation activities. Data from these updates
were also to be entered in the SMART system. IMSS staff indicated that
quarterly updates were being received and entered into the SMART system,
but again did not provide documentation that we requested regarding this
effort.




                                    - 25 -
       For classified computer systems, IMSS staff indicated that a tracking
system is being developed into which classified vulnerability data will be
entered. The system was expected to be ready for use by
July 30, 2003. Twenty nine percent (6 of 21) of the assets are classified
systems. The IMSS was unable to explain how tracking currently occurs for
classified systems but described the current process as “weak.”

      Absent the requested documentation for tracking SBU systems and the
stated weakness in tracking classified systems, we could not verify that
mitigation of vulnerabilities is being properly monitored.

(3) Significant Weaknesses in the IMSS Monitoring of Mitigation
    Activities for Critical IT Asset Vulnerabilities

      We identified the following significant weaknesses regarding the
IMSS’s efforts to monitor mitigation actions for the 12 critical IT asset
vulnerabilities.

(a) POA&Ms Were Not Properly Completed by Components

       The August 29, 2002, notification requiring components to develop
POA&Ms also contained detailed preparation instructions. As stated in the
notification, each component was required to prepare individual system and
component summary POA&Ms describing all known IT security weaknesses.
At the system level, components were to indicate the source of each
weakness, corrective actions, and estimated completion dates.25 Component
summaries were required to include a cross-system summary of
weaknesses, steps components were taking to correct weaknesses, and
completion dates. Components were also required to describe the
performance measures that would be used to track progress in mitigating
weaknesses.

      We evaluated the POA&Ms submitted by the DEA, INS, and JMD, three
of the four components with critical IT systems identified in the 2001 MEI.
We did not evaluate the POA&Ms submitted by the FBI. We initially
requested the FBI information in October 2002. The FBI, at that time, had
not provided data to the IMSS because the FBI was undergoing an intensive
C&A of a portion of its systems. We updated our audit information in May
2003. Information Management and Security Staff officials indicated that
the FBI had provided the IMSS with POA&Ms. We requested the FBI’s
POA&Ms from the IMSS, but the information had not been provided as of the
date of our draft report.

       25
          IT security weaknesses were identified through audits, system security
penetration tests, self-assessments, and vulnerability assessments.

                                          - 26 -
       In the 2002 “Summary of the OIG Fiscal Year 2002 Evaluation of the
Department of Justice Information Security Program and Practices Pursuant
to the Government Information Security Reform Act” report submitted to the
OMB, OIG auditors concluded that the Department had not performed timely
and effective oversight to ensure implementation of Department security
policies. This weakness was evidenced by the components’ failure to
implement corrective actions in their systems’ environment.

      Of the POA&Ms we evaluated, none were properly completed or fully
usable for tracking mitigation actions for critical IT system weaknesses. Our
specific concerns are noted below.

   •   Of the 43 risk items identified in the vulnerability assessments for the
       DEA, INS, and JMD critical IT systems, only 20 risk items were
       addressed in the POA&M submissions. Consequently, mitigation
       actions for most of the vulnerabilities identified in the Department
       Vulnerability Assessment were not addressed by components.
       Although the POA&Ms are intended to reflect existing plans to correct
       IT weaknesses, it appears that there are no plans to correct 23 of the
       known weaknesses.

   •   None of the components identified the source of weaknesses reported
       in POA&Ms. Consequently, we were unable to determine whether all
       sources of IT security weaknesses were considered by components in
       developing the POA&Ms.

   •   None of the components described the performance measures that
       would be used to track progress in mitigating weaknesses as required
       in the August 29, 2002, notification.

   •   JMD’s POA&M was structured as a self-assessment questionnaire that,
       in our judgment, did not appear to us to be usable for monitoring
       mitigation actions.

   •   The DEA’s POA&M did not include planned corrective actions.

      Weaknesses in the POA&Ms appear to result in part from some
problems with the Vulnerability Assessment on which the POA&Ms are based.
The Vulnerability Assessment does not clearly identify the specific critical IT
asset vulnerabilities needing mitigation, and the document contains some
internal inconsistencies that could cause problems in preparation of the
POA&Ms.




                                     - 27 -
(b) POA&Ms Did Not Adequately Identify Required Resources for
    Implementing Risk Mitigation Activities

      Based on the results of Vulnerability Assessments and the subsequent
mitigation and response plans, there is the possibility that additional
resources may need to be identified, developed, or procured to ensure the
protection of the Department’s critical infrastructure.

      JMD’s initial effort to identify budgeted resources to improve IT
security for mission-essential systems is documented in the March 2002
Vulnerability Assessment. Section 5 of the assessment contains the
multi-year funding plan that projects the Department will spend
approximately $314.5 million in FYs 2002 through 2004 to improve IT
security. The funding details are contained in the table on the following
page. We noted multimillion-dollar discrepancies in the totals submitted for
the FBI, which the IMSS staff acknowledged as a math error. We corrected
the table to include the Trilogy amounts in the FBI totals.26




       26
           The Trilogy program is the FBI’s 36-month program to upgrade the infrastructure
technologies throughout the FBI. It consists of three components: 1) Network - which
includes high-speed connections linking FBI offices; 2) Information Presentation - which is
comprised of hardware and software within each office to link each employee at their desk
to FBI systems; and 3) User Applications - which includes several user-specific software
tools to enhance each agent’s ability to organize, access, and analyze information.

                                          - 28 -
                                     Multi-Year IT Security Funding Plan
                                          (FYs 2002 through 2004)
                                                                                      FY 02         FY 03         FY 04
Justice Management Division
Critical Infrastructure Protection                                                      $71,135      $123,366     $125,833
  Program Contract Support
Justice Data Centers                                                                  $2,302,200    $1,583,000   $1,617,330
Justice Consolidated Network                                                           $196,260      $200,000     $202,635
   Component Total by FY                                                             $2,569,595    $1,906,366 $1,945,798


Drug Enforcement Administration
Information Security Initiative                                                       $2,879,000    $6,683,000   $6,843,000

El Paso Intelligence Center Information System                                         $163,400      $477,000     $747,000
Mercury (See Note #1)                                                                         $0            $0            $0
Merlin                                                                                 $385,700      $648,499    $1,512,634
Firebird                                                                              $2,201,100   $18,053,400 $18,053,400
Model 204 Applications                                                                 $809,400     $2,180,000   $2,230,000
   Component Total by FY                                                             $6,438,600 $28,041,899 $29,386,034


Federal Bureau of Investigation
Information Assurance Initiative                                                     $58,573,000   $74,570,000 $39,981,000
Trilogy                                                                              $13,214,520    $1,430,320   $2,901,760
Mainframes and Applications                                                            $574,294      $750,000     $759,924
Criminal Justice Information System (CJIS) WAN                                         $193,800      $452,000     $452,000
InfraGard (See Note #2)                                                                       $0            $0            $0
Integrated Automated Fingerprint Identification                                        $408,910      $316,696     $316,210
  System (IAFIS)
National Crime Information Center 2000                                                 $268,690      $202,463     $207,750
  (NCIC 2000)
Intelligence Information System (IISNET) (No Data provided)
Secure Automated Messaging Network (SAMNET)                                            $329,500      $436,000     $341,000
FBI Wide Area Network (FBI NET)                                                        $290,000      $290,000     $290,000
   Component Total by FY                                                            $73,852,714 $78,447,479 $45,249,644


Immigration and Naturalization Service
Atlas Project                                                                         $4,351,000   $17,998,000 $18,870,170
Central Index System (CIS)                                                             $259,500       $75,000      $45,000

Enforcement Case Tracking System (ENFORCE)                                            $1,449,250     $985,525     $734,598
Automated Biometric Identification System (IDENT)                                      $651,700      $646,500     $638,950
Wide Area Network (INSINC) (See Note #3)                                                      $0            $0            $0
   Component Total by FY                                                             $6,711,450 $19,705,025 $20,288,718
                                                               Total by FY          $89,572,359 $128,100,769 $96,870,194

                                                               Total all FYs       $314,543,322
Notes
#1 - Funding for Mercury is included in the funding for Merlin and the Information Assurance Initiative.
#2 – No funding information available.

#3 - Funding for INSINC is included in the funding for the Atlas Project       .
           Source: JMD’s March 2002 Vulnerability Assessment as recalculated by the OIG

                                                              - 29 -
      Although the multi-year funding plan was an initial attempt to identify
resources budgeted to improve IT security for mission-essential systems, it
did not specifically identify whether sufficient resources were budgeted to
remediate the vulnerabilities identified in the March 2002 Vulnerability
Assessment. The plan was not linked to the identified vulnerabilities and is
not useful in identifying whether the funding amounts presented are
adequate to remediate IT systemic vulnerabilities. Accordingly, in the
August 29, 2002, notification requiring components to develop POA&Ms, the
IMSS also requested that components identify the resources required to
mitigate vulnerabilities.

       Of the three component POA&Ms that we reviewed, none adequately
identified resources required to mitigate vulnerabilities.

   •   In its summary POA&M, the INS identified $9,350,703 in additional
       funding required to mitigate known IT system vulnerabilities.
       However, in each of its supporting system-level POA&Ms, the INS
       indicated that no additional resources would be required to mitigate
       vulnerabilities. This discrepancy was apparently undetected by the
       IMSS’s review of the INS’s POA&M.

   •   The POA&M submitted by JMD did not address budgeted resources
       required to mitigate vulnerabilities.

   •   The POA&M submitted by the DEA contained a column for recording
       resources required to mitigate vulnerabilities; however, most of the
       column was blank.

       We discussed with the IMSS staff these problems with the POA&Ms
and asked why their review of the documents did not identify the problems.
We were told by the IMSS staff that their review of the POA&Ms consisted of
identification of security and planning issues. An IMSS analyst determines
whether the planning and funding is adequate to remediate the identified
weakness. If it is not, then the IMSS analyst will work with the component’s
representative to develop adequate plans. Information Management and
Security Staff indicated that the INS probably included the $9.3 million
funding requirement in its Exhibit 300 for a new system and not to mitigate
weaknesses in an older system.27




       27
          An Exhibit 300 is a capital asset plan that must be prepared for major projects
and is submitted to the Department and OMB.

                                           - 30 -
(c) Process Used to Monitor Components’ Progress in Mitigating IT
    Asset Vulnerabilities Was Ineffective

      The IMSS was responsible for monitoring components’ progress in
mitigating IT asset vulnerabilities by performing quarterly comparison of
Exhibit 300s to data stored in the SMART database. The intent of these
comparisons is to determine whether actions to mitigate vulnerabilities have
been funded and whether mitigating actions are ongoing.

       We identified several shortcomings with this process. First, such a
comparison may not be effective in that the Exhibit 300s do not provide a
sufficient level of detail regarding resources budgeted to mitigate
vulnerabilities associated with critical systems. The Exhibit 300s provide a
narrative of corrective action but do not consistently associate costs of
mitigating specific vulnerabilities. For example, the FBI’s Exhibit 300
included an estimate of $569,123 for security costs of the NCIC 2000
system. The FBI’s narrative explains that it will cover an audit log server
system, additional intrusion detection capability, and a separate Intrusion
Detection System (IDS) management network segment that collects firewall
and IDS system log files. The FBI’s Exhibit 300 does not provide a separate
costing for the audit log server system from the additional intrusion
detection capability.

       At the time of our audit, the Department had not had adequate time to
complete vulnerability assessments, risk mitigation plans, or multi-year
funding plans for most of the assets newly added to the MEI. While the
Department has efforts underway in each of the areas identified above,
effective oversight is necessary if the Department is to provide adequate
protection of its critical assets.

       Second, such a comparison is unnecessary since components are
required to identify in the POA&Ms whether required resources were
identified and funded. However, the POA&Ms do not appear to be useful for
this purpose.

      Third, the comparison process was not summarized or documented;
consequently, the IMSS was unable to show how much progress components
had made in mitigating critical IT system vulnerabilities. The POA&Ms
require follow-up guidance from the IMSS to be effective as a risk mitigation
monitoring tool.




                                   - 31 -
D. Conclusions

      Through the efforts of the IMSS, the Department has made some
progress in establishing and managing a risk mitigation program. The IMSS
has accomplished:

   •   completion of vulnerability assessments,

   •   development of risk mitigation plans (though none properly
       completed),

   •   development of the SMART database to track risk mitigation for SBU
       systems,

   •   completion of drafting a new CIP Plan, and

   •   revalidation of MEI after September 11, 2001.

     Despite this progress, significant problems remain in the Department’s
management of the risk mitigation program. The major weaknesses that
remain are identified below.

   •   Identification of critical assets from the ATF has yet to be completed.

   •   Vulnerability assessments, risk mitigation plans, and a multi-year
       funding plan were not developed for assets newly added to the MEI
       and for those to be identified from the ATF.

   •   The IMSS has not developed a system to track risk mitigation for
       classified systems.

   •   Resources required to mitigate vulnerabilities were not adequately
       identified.

   •   Plans of Actions and Milestones were not adequately completed by
       components.

      The Department has not had adequate time to make a vulnerability
assessment or risk mitigation plans for assets newly added to the MEI and
for assets transferred from the ATF. While the Department has efforts
underway in each of the areas identified above, effective oversight is
necessary if the Department is to provide adequate protection of its critical
assets.


                                     - 32 -
       Our audit work disclosed that the IMSS did not establish an effective
Department risk mitigation program and that the IMSS’s efforts to monitor
mitigation actions were not effective. Regarding the four program
vulnerabilities, IMSS officials indicated that mitigation actions were
progressing on schedule. However, we initially found that the IMSS did not
effectively manage the mitigation actions in that project plans were
developed but lacked key milestone dates for completion, and the IMSS did
not allow components sufficient time to provide required data.

       Regarding the mitigation of the 12 critical IT asset vulnerabilities, we
found that the POA&Ms, which were required to ensure the correction of
identified security weaknesses, were inadequately prepared by components.
None of the POA&Ms identified required resources for implementing risk
mitigation activities. Additionally, the process used by the IMSS to monitor
components’ overall progress in mitigating vulnerabilities was ineffective.

       These problems occurred, in part, because IMSS officials did not
evaluate the effectiveness of their many risk mitigation-monitoring activities.
Although IMSS officials were fully aware of the PDD 63 requirement for
achieving full operating capability by May 2003, the Department has not met
this requirement. In its revised CIP Plan, key activities are identified but
some do not include milestone dates for completion. Further, although the
IMSS required components to prepare and submit risk mitigation plans, a
thorough review would have disclosed that the plans contained several
deficiencies. Although the IMSS was expending considerable resources to
enter data from the component risk mitigation plans into its SMART database
system, the process used to assess components’ progress in mitigating
critical risks was ineffective. Also, no system was established for monitoring
risk mitigation of classified systems.

      As a result of these deficiencies, the Department has not achieved the
mandated “full operating capability” and has less than adequate assurance
that critical IT asset vulnerabilities will be adequately or timely mitigated.

E. Recommendations

      We recommend that the Assistant Attorney General for Administration:

1.    Develop a tracking system for risk mitigation activities for classified
      MEI systems.

2.    Develop a multi-year funding plan based on resources required to
      mitigate vulnerabilities as identified in revised POA&Ms.


                                     - 33 -
3.   Revise the current process used to monitor components’ progress in
     mitigating critical IT vulnerabilities to a clear component-by-
     component summary.

4.   Monitor and document, at least quarterly, the status of certification
     and accreditation for critical IT systems.

5.   Ensure components submit POA&Ms completed in accordance with
     OMB guidance. At a minimum, the component’s POA&Ms should:
     a) clearly address the vulnerabilities identified in the Department
     Vulnerability Assessment, b) include the source of the vulnerabilities
     so readers can refer back to the Department Vulnerability Assessment
     to obtain additional information, c) describe the performance measures
     used to track progress in mitigating weaknesses, and d) identify
     resources required for implementing risk mitigation activities for each
     identified vulnerability.

6.   Conduct vulnerability assessments and develop risk mitigation plans
     for assets newly added to the MEI.

7.   Determine the critical assets within the ATF and perform vulnerability
     assessments, develop risk mitigation plans, and a multi-year funding
     plan for those assets.

8.   Develop a work plan, with milestone dates for key activities, for
     attaining full operational capability for critical infrastructure protection
     at the earliest possible date.




                                     - 34 -
2. ESTABLISHING AN EMERGENCY MANAGEMENT PROGRAM

      Although the April 1999 CIP Plan contained a comprehensive
      blueprint and milestones for an effective, centrally managed
      Department emergency management program, such a program
      has not been fully implemented. Many of the critical emergency
      management program elements relating to indications and
      warnings, incident collection, reporting and analysis, and
      response and contingency planning were neither established nor
      operating. Although the CIP Task Force was responsible for
      developing and implementing the CIP Plan, including the
      emergency management program, the Task Force ceased
      operating during calendar year 2000 and had no further
      involvement in implementation activities. As a result, the
      Department has less than adequate assurance that it can
      effectively respond to computer attacks and security incidents.

A. Department Efforts to Establish an Emergency Management
   Program for the Protection of Critical Infrastructure Assets

       The April 1999 CIP Plan established the critical elements for an
effective emergency management program and tasked the CIP Task Force
(CIPTF) with its implementation. The CIPTF had members in 9 law
enforcement entities, 5 litigating divisions, and 12 other entities. See
Appendix 10 for Department entities that had CIPTF members. The
Department’s emergency management program, as envisioned in the CIP
Plan, was to incorporate the following three elements.

  •   Indications and Warnings: The purpose of this element was to
      establish an effective and secure mechanism for: a) receiving threat
      indication and warning information concerning the critical
      infrastructure of the Department and the nation from the intelligence
      community and law enforcement agencies, and b) disseminating this
      information in a timely manner to appropriate Department
      components.

      As envisioned in the CIP Plan, the emergency management program
      would establish effective liaisons with the Department’s SEPS, the
      FBI’s NIPC, and the FBI’s Strategic Information Operations Center
      (SIOC). The IMSS would ensure the existence of secure, effective,
      and timely communication channels for passing threat information
      from internal and external organizations to Department components at



                                   - 35 -
       both headquarters and field locations charged with the protection of
       the Department’s critical infrastructure assets.28 In our judgment,
       although part of the NIPC has been transferred to the DHS, an
       effective liaison capacity is still needed.

   •   Incident Collection, Reporting, and Analysis: This element was to
       define and establish an effective and secure mechanism for collecting,
       reporting, and analyzing incident information about actual and
       potential attacks on the Department’s critical infrastructure assets.29
       The established method should have ensured that information
       generated from computer security incidents was received from
       Department components and disseminated throughout the Department
       and to other intelligence and law enforcement agencies, as
       appropriate, in a timely manner.

       Incident data would be provided to the NIPC as part of the
       National Critical Infrastructure Indications and Warnings System and
       the Department’s Computer Security Laboratory to establish new
       requirements for a research and development program. The incident
       data would also be used to support budget and resource justifications.

   •   Response and Contingency Plans: This element was to define and
       establish sound response and contingency plans to ensure that the
       Department’s critical infrastructure assets could be restored to the
       minimum operational effectiveness necessary to support the
       Department’s missions, should these critical infrastructure assets be
       subjected to successful attack.

       Response plans identify actions for responding to a significant
       infrastructure attack while the attack is underway. Contingency plans
       identify actions required to rebuild or restore an infrastructure after it
       has been damaged. The CIP Plan requires that response and
       contingency plans should be prepared, reviewed, and approved by
       Department authorities, and tested by an exercise on a periodic basis
       to ensure that the plans can be effectively implemented.

     The CIP Plan also established several intermediate milestones for
implementing the three essential elements of the Department emergency

       28
          The CIP Plan did not contain details as to how the communication channels would
operate or how the communication channels would be implemented.
       29
          An incident is an occurrence that has been assessed as having an adverse effect
on the security or performance of an information system.

                                          - 36 -
management program. Full implementation of the program was to occur no
later than September 28, 1999.

B. Implementation of the Emergency Management Program

      Although the CIP Plan contained a comprehensive blueprint and
milestones for an effective, centrally managed Department emergency
management program, such a program was never fully established. Officials
of the IMSS indicated that the CIP Task Force, tasked with implementing the
emergency management program, last met during calendar year 2000 and
was no longer in existence. In response to our inquiries, those IMSS officials
could not provide an explanation as to why no further effort was made to
implement the plan.

      Officials of the IMSS also stated that although the emergency
management program as envisioned in the CIP Plan had not been
implemented, most of the elements of an effective emergency management
program were nevertheless in place and operating throughout the various
Department components. However, in evaluating the Department’s
response capabilities to computer security incidents, we found that many of
the four critical emergency management program elements relating to
1) indications and warnings, 2) incident collection, reporting and analysis,
3) response plans and 4) contingency planning were neither established nor
operating. Our specific observations follow.

(1) Indications and Warnings

       The IMSS did not ensure that this element of the emergency
management program was fully implemented. According to JMD officials,
communication channels were established for passing threat information
from internal and external organizations to Department components at both
headquarters and field locations charged with protecting the Department’s
critical infrastructure assets. Specifically, the DOJCERT is the Department’s
central point for receiving and disseminating indications and warnings.30
Within the DOJCERT, a contractor operates the Department’s-Information
Sharing and Analysis Center and provides a departmentwide mechanism for
sharing vulnerabilities to better prepare the Department for responding to
cyber attacks. Additionally, the DOJCERT has implemented an intranet web


       30
          In May 2003, the IMSS name changed to the Information Technology Security
Staff (ITSS). The ITSS retained the prior IMSS staff and responsibilities for oversight of the
CIP program. The ITSS gained responsibility from JMD Computer Services Staff for
managing the DOJCERT.

                                           - 37 -
page that includes a search capability for previously distributed indication
and warning bulletins, and an Internet web page for information purposes.

       Although communication channels were established for passing threat
information, the IMSS did not determine whether the channels were secure,
effective, and provided timely information as required by the CIP Plan.
Additionally, the IMSS did not verify whether effective liaisons with the FBI’s
NIPC or the SIOC were established and ongoing. See Finding 3 for more
details concerning liaisons not being adequately identified. Unless all
indication and warning elements are in place, the Department does not have
the assurance that communication channels for sharing vulnerabilities are
secure and that components are receiving timely information to better equip
them to respond to computer security incidents.

(2) Incident Collection, Reporting, and Analysis

      The IMSS did not ensure that this element of the emergency
management program was fully implemented. Although detailed procedures
for components to follow when reporting computer security incidents were
developed, the IMSS did not verify that these procedures were implemented
and being followed, nor did the IMSS ensure that security incident data was
being collected and analyzed.

       The JMD CSS developed the June 27, 2002, Standards, Guidelines, and
Standard Operating Procedures for the DOJCERT (Department Manual
TP-001). This directive was developed in response to an increase in
computer attacks and contains detailed procedures for effective handling and
reporting of computer security incidents. Department Manual TP-001
identifies and defines the following nine computer security incident
categories.

   •   System Compromise: An unauthorized user gains system privileges
       on Department computers.

   •   Information Compromise: A weakness in a Department system is
       exploited that allows unauthorized access to password files, protected
       or restricted data, system resources, and software/code but does not
       gain system privileges.

   •   Unauthorized Access: A valid Department account is used without
       permission of the owner.

   •   Denial of Service: Department resources are unavailable for use by
       an authorized user.

                                    - 38 -
  •   Misuse: An authorized user violates federal law or regulations and/or
      Department policies regarding proper use of computer resources,
      installs unauthorized or unlicensed software, or accesses resources or
      privileges that are greater than those assigned.

  •   Hostile Probes: One or more systems are used to scan targeted
      Department systems or networks with the intent to conduct or to
      gather information for unauthorized or illegal activities.

  •   Malicious Software: Software developed with the intent to run on
      and cause harm to Department computers.

  •   Intrusions: Access by unauthorized individuals to Department
      systems that bypasses authentication mechanisms, exploits
      vulnerabilities in system services, eavesdrops, or monitors networks.

  •   Theft: Unauthorized removal of Department information and
      computer equipment.

       Because incidents may have many possible consequences ranging
from slight to catastrophic, Department Manual TP-001 outlines five
priorities to consider when evaluating and dealing with computer security
incidents.

  •   Priority 1: Protect human life and people’s safety.

  •   Priority 2: Protect National Security Information (NSI) data.

  •   Priority 3: Protect SBU data.

  •   Priority 4: Prevent system damage.

  •   Priority 5: Minimize disruption of computing resources.

      The Department Manual TP-001 also contains detailed reporting
requirements for components to follow in reporting computer security
incidents. For incidents involving SBU systems, components are required to
provide the DOJCERT a verbal report within one working day after an
incident has occurred. Within five working days, a written preliminary
incident report, containing as much information as possible, is to be
submitted. Within ten working days of the resolution of an incident, a
written formal report is to be submitted, and in cases where incident
resolution is expected to take more than 30 days, a status report is to be

                                   - 39 -
submitted to the DOJCERT every 10 days. For incidents involving NSI,
components follow the same reporting requirements with the exception that
the reports are provided to the Department Security Officer rather than to
the DOJCERT.

       Although detailed procedures were developed by the CSS for
components to follow in reporting computer security incidents, the IMSS
could not substantiate whether the procedures were implemented and were
being followed. According to IMSS staff, tabulated summaries on the
number and type of incidents are reported each month. However, the IMSS
could not provide tabulated summaries regarding the nature, frequency,
category, and remediation of prior Department computer security incidents
or possible trends and potential systemic weaknesses based on analyses of
prior incidents. In addition, the IMSS did not verify whether additional
procedures for collecting and analyzing incidents as required by the CIP Plan
were developed and in place. We asked the IMSS for an explanation why no
verification of additional procedures occurred but the IMSS officials provided
no response. Although there is no specific requirement that the IMSS
maintain documentation for these activities, absent such documentation, the
Department does not have the assurance that additional procedures for
collecting and analyzing incidents as required by the CIP Plan were
developed and in place.

     Absent the documentation described above, the IMSS will have little
assurance that it is developing effective countermeasures from prior attacks
and providing this knowledge to components to enhance response
capabilities.

(3) Response Plans

      We determined that the IMSS did not fully implement this element of
the emergency management program. Although requirements had been
established for developing, implementing, and testing incident response
procedures, the IMSS did not verify whether the procedures were in place
and operating.

      Department Manual TP-001 requires each Department component to:
a) develop, implement, and maintain internal incident response procedures,
and b) identify an appropriate individual responsible for reporting incidents
to the DOJCERT. The Manual also provides the minimum level of procedures
for component incident response programs and specifies that the response
procedures should be documented by each component and submitted to the
DOJCERT to be kept on file.


                                    - 40 -
      In addition to developing Department Manual TP-001, JMD CSS also
developed the June 17, 2002, DOJCERT Procedures Manual, which outlines
CSS Service Center and DOJCERT procedures for responding to Department
computer security incidents.31 In responding to an incident, the CSS Service
Center assigns a number to the incident and completes an incident report
form that is forwarded to an incident manager then to the DOJCERT program
manager for investigation and resolution.32

      Upon notification of the incident, the DOJCERT Program Manager
performs an initial assessment by: a) reviewing the incident report to
determine the severity of the problem; b) locating sources and organizing
steps for solutions; c) determining who should be notified and involved in
working the solution; d) determining whether a Security Alert needs to be
broadcast;33 and e) determining whether the FBI, NIPC, Federal Computer
Incident Response Center (FedCIRC) or SEPS need to be notified.34 After
completing the initial assessment, the Program Manager then initiates the
solution identified during the assessment process and updates the ticket
management system with information about the implemented solution and
the incident response process.

      Although detailed response procedures for computer security incidents
had been established, the IMSS had not ensured that the procedures were
implemented and being followed. Specifically, the IMSS did not verify
whether components had developed, implemented, and maintained internal
incident response procedures and whether components had identified
appropriate individuals responsible for reporting incidents to the DOJCERT.
Although there is no specific requirement that the IMSS maintain
documentation for these activities, absent such documentation the
Department does not have assurance that response procedures are effective.



       31
           The CSS Service Center was the front-end support for the DOJCERT incident and
inquiry response operations. In most cases, the Service Center was the initial point-of-
contact or first-level support for the DOJCERT operations staff. Since May 4, 2003, the
incident and inquiry response functions have moved to the ITSS.
       32
         The Program Manager is responsible for directing and managing the personnel
and operations of the DOJCERT.
       33
            A Security Alert should be sent under the threat and warning reporting procedures
if the incident has affected or is likely to affect more than one component.
       34
          Within the DHS, the FedCIRC is the central coordination and analysis facility
dealing with computer security-related issues affecting the civilian agencies and
departments of the federal government.

                                           - 41 -
      In May 2003, we sought any changes in these procedures.
Information and Management Security Staff indicated that they were able to
provide summary information on computer incidents, but as of June 6, 2003,
no documentation had been provided.

      In a 2002 review of the FBI’s Automated Case Support System
pursuant to the GISRA, OIG auditors determined that the FBI is not following
the incident response requirements outlined in Department Manual TP-001.35
Specifically, personnel had not been formally trained to identify and handle
incidents and the incident response procedures had not been centralized or
implemented across the FBI. This condition occurred because the FBI had
not yet developed incident response procedures that meet the requirements
of the DOJCERT or trained employees in the incident response procedures
and requirements. As a result, the FBI increased its risk of having incidents
occur without its knowledge or proper follow-up. Had the IMSS verified
implementation of the DOJCERT requirement, such lapses in complying with
incident response requirements could have been avoided.

      Additionally, although the CIP Plan requires periodic testing of
response plans, such testing had not been conducted. Information
Management and Security Staff officials maintained that response plans
were in fact tested during the last major incident involving a computer
worm; however, a response during a single actual incident does not
constitute complete testing of the response plans because some aspects of
the plan may not be involved in the response to a single live incident.36 The
IMSS officials added that testing was also unnecessary because they
frequently received component warnings from the DOJCERT. They reasoned
they could only receive such warnings if the response plans were working.
We disagree with this reasoning because a single incident may test some
aspects of a response plan while a complete test would check all aspects of
the response plans. Testing of response plans is crucial to identifying
weaknesses prior to the occurrence of an actual incident.




       35
         See “Independent Evaluation Pursuant to the Government Information Security
Reform Act Fiscal Year 2002” (Audit Report 03-06).
       36
           A computer worm is a program that replicates itself and often contains some
functionality that interferes with the normal use of a computer or program. Unlike viruses,
worms exist as separate entities spreading automatically over networks from one computer
to the next.

                                          - 42 -
(4) Contingency Plans

      We determined that the IMSS did not fully implement this element of
the emergency management program. Although requirements had been
established requiring components to develop and periodically test
contingency plans, we found that the majority had not done so.

       On July 12, 2001, the JMD Information Management and Security
Office issued the Department Order 2640.2D, requiring components to
develop contingency plans for: a) continuing missions in the event IT
systems become unavailable, and b) recovering IT systems in event of loss
or failure. In complying with the Department Order, components must
ensure that contingency plans:

  •   identify the priorities of the system for restoration, taking into
      consideration the system’s role in fulfilling the Department mission and
      interdependency requirements;

  •   determine the maximum amount of elapsed time permissible between
      an adverse event and putting the system’s contingency plan into
      operation;

  •   determine the maximum amount of data and system settings that can
      be lost between the service interruption event and the last back-up
      (this measure determines system back-up policies); and

  •   identify interdependencies with other Department of Justice, state, or
      local agency systems that could affect contingency operations.

       The Department Order also requires components to: a) test
contingency resumption plans annually or as soon as possible after a
significant change to the environment that would alter the in-place assessed
risk, and b) develop and maintain site plans detailing responses to
emergencies for IT facilities.

      Although the Department Order required components to develop and
test contingency plans as well as site plans detailing responses to
emergencies for IT facilities, the IMSS could not provide support that
components had done so. We noted the following deficiencies.

  •   From the January 2001 MEI, the IMSS was able to provide contingency
      plans for 12 of the 20 critical IT systems. In regard to the other eight
      systems, IMSS officials explained that: a) for six of the classified
      systems, the contingency plans were kept with SEPS, b) the

                                    - 43 -
       contingency plan for one system was being updated, and c) for two
       systems the plans were no longer relevant since the systems were
       being reengineered and were not operational.37 Although these
       explanations as to why the IMSS did not have contingency plans were
       plausible, the explanations were not supported by any documentation.
       Absent such documentation, it is not evident that the IMSS was
       carrying out its assigned oversight responsibilities.

       We updated the audit information in key CIP areas in May 2003. From
       the December 2002 MEI, the IMSS was able to provide contingency
       plans for only 9 of the 21 critical IT systems. According to IMSS
       officials, the classified files had been transferred from SEPS to the
       IMSS. Information Management and Security Staff officials explained
       that the DEA housed their own contingency plans at various locations.
       When asked to provide documentation of the IMSS’s review of the DEA
       contingency plans, IMSS officials were not able to provide any.
       Information Management and Security Staff stated that SEPS
       maintained very few contingency plans for the FBI. As a result, few
       FBI files were transferred to the IMSS. We attempted to review the
       FBI contingency plan but were not provided those plans by IMSS.
       Additionally, IMSS staff indicated that they were in the process of
       putting the FBI on a performance plan for the development of
       contingency plans for its systems without plans.

   •   Contingency Plans did not contain all elements required by
       Department Order 2640.2D. We judgmentally selected and reviewed
       contingency plans for the INS’s INSINC System and the Department’s
       CJIS WAN. As demonstrated in the following table, our review
       disclosed that required elements were not addressed for either
       contingency plan. This condition occurred, in part, because neither
       contingency plan showed coordination or approval actions by either
       the component or IMSS officials.




       37
           The DEA’s EIS consists of a classified and unclassified portion. IMSS possessed a
copy of the contingency plan for the unclassified portion but not for the classified portion.
This difference results in EIS being counted twice even though there are only 20 systems
that comprise the January 2001 MEI. See Appendix 5 for more detail.

                                           - 44 -
         Evaluation of INSINC and CJIS WAN Contingency Plans

       Required Element                   INSINC          CJIS WAN
Identify system priorities for          Not Addressed    Not Addressed
restoration.
Determine maximum amount of             Not Addressed    Not Addressed
elapsed time permissible between an
adverse event and putting the
contingency plan in operation.
Determine the maximum amount of         Not Addressed    Not Addressed
data and system settings that can be
lost between the service interruption
event and the last back-up.
Identify interdependencies with other     Addressed      Not Addressed
systems.
Identify system owners, roles, and        Addressed        Addressed
responsibilities.
    Source: OIG analysis

       In the 2002 “Summary of the OIG Fiscal Year 2002 Evaluation of the
       Department of Justice Information Security Program and Practices
       Pursuant to the Government Information Security Reform Act” report
       submitted to the OMB, OIG auditors found that the Department had
       weaknesses in contingency planning. This weakness was identified as
       a repeat weakness from the 2001 OIG report.

   •   Contingency plans were not tested annually as required by
       Department Order 2640.2D. As discussed previously, the Department
       first established its MEI of 20 computer assets in January 2001. This
       inventory was revised in December 2002 and the resulting MEI
       consists of 21 computer assets. Only three of the systems included on
       the January 2001 MEI had undergone contingency plan testing. One
       system with a tested contingency plan was dropped from the
       December 2002 MEI and another with a tested contingency plan was
       added. IMSS officials could not determine the status of contingency
       plans testing for any of the remaining eight assets newly added to the
       MEI as of May 2003. None of the other systems that remained from
       the January 2001 MEI had tested contingency plans. IMSS officials
       were unable to determine the status of the newly added assets
       because they received no response from the components to their
       queries. IMSS officials explained that testing of contingency plans was
       expensive and funds were not available; however, they were unable to
       provide documents showing that funding had been requested and
       denied. IMSS officials indicated that the Department’s Chief
       Information Officer had intended to issue a memorandum to
       components stressing the importance of testing contingency plans and
                                       - 45 -
       providing guidance on how to perform and obtain funding to pay for
       the tests. As of May 2003, the document had not yet been issued.

C. Overall Causes for and Effect of Not Fully Implementing an
   Emergency Management Plan

      Although the CIP Task Force was charged with developing and
implementing the Emergency Management program, the Task Force never
did so. Information Management and Security Staff officials stated that the
Task Force last met during calendar year 2000 and was no longer in
existence. They added that the Task Force’s primary responsibility when it
did meet was to work on Year 2000 conformity issues.38 According to an
IMSS official, once the Year 2000 conformity issues were resolved, the task
force no longer convened. In response to our inquiries, IMSS officials could
provide no explanation as to why no further effort was made to implement
the plan.

        Further, the IMSS officials stated that although the emergency
management program as envisioned in the CIP Plan had not been
implemented, they believed that most of the elements of an effective
emergency management program were nevertheless in place and operating
throughout the various Department components. We do not agree with this
assessment because several of these elements are not adequately operating.
Unless a centralized effort is made to verify that the various component
parts of the CIP Plan are in place and operating, the Department will have
little assurance that it can effectively respond to emergency computer
security incidents.

D. Conclusions

      Although the CIP Plan contained a comprehensive blueprint and
milestones for creating an effective emergency management program by
September 1999, such a program was not fully implemented as
demonstrated in the following table.




       38
           Year 2000 conformity ensured that Departmental IT system performance and
functionality would not be affected by dates prior to, during, and after the year 2000.

                                          - 46 -
      Implementation of the Department’s Emergency Management
         Program to Protect Critical Infrastructure IT Systems

    CIP Plan                  Element                        Element not
  Requirement               Implemented                     Implemented
Indications and        • Communication channels      • No verification to determine
Warnings                 established for passing       whether communication
                         threat information            channels were secure,
                                                       effective, and timely

                                                     • No verification to determine
                                                       whether required liaisons were
                                                       established

Incident Collection,   • Requirements                • No verification to ensure
Reporting, and           established for               established procedures were
Analysis                 components to report          followed by components
                         incidents
                                                     • No verification to ensure
                                                       incident data was being
                                                       collected and analyzed


Response Plans         • Requirements                • No verification to ensure
                         established for               response procedures were
                         developing,                   implemented and followed
                         implementing, and
                         testing incident response   • Response plans not tested
                         procedures

Contingency Plans      • Requirements                • No support that plans were
                         established calling for       developed for all critical
                         components to develop         systems
                         and test contingency
                         plans                       • Plans did not address all
                                                       required elements

                                                     • Plans not tested

       Source: CIP Plan and OIG analysis

      In evaluating the Department’s response capabilities to computer
security incidents, we found that many critical elements related to
indications and warnings, incident collection, reporting and analysis, and
response and contingency planning were neither established nor operating.
We agree that other elements are operating, but not adequately for a
successful emergency management program. Until the critical elements of
an effective emergency management program are in place and operating,


                                           - 47 -
the Department will have less than adequate assurance that it can
effectively respond to attacks to its critical infrastructure technology
systems.

E. Recommendations

      We recommend that the Assistant Attorney General for Administration:

9.    Define standards for secure, timely, and effective communication
      channels for passing indications and warning information and ensure
      those standards are implemented and operating.

10.   Ensure that effective liaisons are established with the DHS’s FedCIRC
      and the FBI’s Strategic Information Operations Center and NIPC.

11.   Ensure that components are in compliance with procedures for
      reporting incidents.

12.   Ensure that data regarding departmentwide computer attacks and
      security incidents are collected and summarized according to the
      nature, frequency, category, and remediation actions taken and that
      analyses are performed to identify potential trends and systemic
      weaknesses.

13.   Verify that incident data is provided to: a) the NIPC as part of the
      National Critical Infrastructure Indications and Warnings System,
      and b) the budget processes to support and justify future CIP resource
      expenditures.

14.   Verify that components have developed, implemented, and maintained
      internal incident response procedures and have identified appropriate
      individuals for reporting incidents to the DOJCERT.

15.   Ensure periodic testing of response plans.

16.   Develop contingency plans for all critical IT assets.

17.   Ensure that documentation is maintained supporting the existence or
      development of contingency plans for all critical infrastructure assets.

18.   Verify that contingency plans address all required elements as
      identified by Department Order 2640.2D.



                                     - 48 -
19.   Obtain appropriate approvals for all contingency plans by component
      and IMSS officials.

20.   Test contingency plans periodically as required by Department Order
      2640.2D.




                                   - 49 -
3. ESTABLISHING AN EFFECTIVE INTERAGENCY COORDINATION
   PROGRAM

      The Department has not implemented an interagency
      coordination program, as required by the CIP plan. The
      Department’s CIP Plan requires Department components to
      develop a list of liaison and interagency relationships for the CIP
      Task Force to develop and maintain a database of those
      relationships. The CIP Task Force, tasked with the development
      and maintenance of the interagency coordination database, was
      disbanded in 2000 without developing the database or
      addressing any of the CIP elements. Additionally, the
      Department has not determined the support its assets provide to
      other federal agencies and entities. This was caused in part
      because the IMSS did not require complete information from
      Department components in determining the Department’s MEI.
      Without taking these steps, the Department cannot ensure
      effective coordination links exist and that information will be
      accessible from Department assets when needed.

A. Importance of Establishing an Effective Interagency Coordination
   Program

      There are two primary objectives for establishing effective interagency
coordination relating to CIP. First, the CIP Plan requires the Department to
establish and maintain effective liaisons with entities proposing and
promulgating security measures and plans relating to CIP. Doing so ensures
that the Department receives and is aware of the most up-to-date
information for protecting its critical IT asset systems.

       Second, the CIAO’s “Practices for Securing Critical Information Assets”
provides guidance for the Department to identify and characterize the level
to which Department assets provide support to other government agencies.
As part of that process, the Department should establish and maintain
effective liaisons with all entities for which Department IT systems either
receive or provide critical data supporting national security, national
economic security, and crucial public health and safety activities. All
Department IT systems either receiving or providing such information must
be identified and included in the Department’s MEI as critical IT assets and
receive the special protection afforded under the CIP program.

      Establishing and maintaining effective interagency coordination in
protecting the Department’s critical IT asset systems is essential. The
Assistant Attorney General for Administration, in approving the April 1999

                                    - 50 -
Department’s CIP Plan, recognized the importance of interagency
coordination by stating in the plan that, “In general, we believe the quickest
and most effective way to achieve a much higher level of protection from the
threats to our critical infrastructure is through the sector structures in
partnership with the owners, operators and appropriate government
agencies.”

B. CIP Plan Requirements for Establishing an Effective Interagency
   Coordination Program

       The April 1999 CIP Plan addressed the need for cooperation with the
various federal, state, and local agencies involved in the protection of the
critical infrastructure as it pertained to Department operations. The
CIP Plan addressed this need by defining and establishing the specific
liaisons necessary for the Department to implement a sound CIP program.
Liaisons were to be established at the national level between program
elements located at Headquarters and their appropriate counterparts, as well
as at the state and local levels for Department field offices. The CIP Plan
established the following requirements.

   •   Each headquarters Program office was to identify current federal and
       interagency liaisons associated with CIP.

   •   Field offices were to identify to each Headquarters Program office all
       new and existing liaisons and memoranda of understanding with
       federal, state and local entities when these liaisons relate to CIP.

   •   The Department was to establish a method for ensuring coordination
       between the various Department entities and liaisons with outside
       organizations as these liaisons relate to CIP.

   •   The identification of these relationships was to be forwarded to the CIP
       Task Force. Each relationship forwarded to the Task Force was to
       include the organizations involved, Department representative(s),
       reason for the liaison, Department obligations, special considerations,
       and the primary mission of the outside organization.

   •   The CIP Task Force was to maintain the overall database of the
       liaisons and relationships, and serve as the Department’s focal point
       for all liaisons and relationships pertaining to CIP.

   •   By May 7, 1999, the Department was to establish a working group or
       other means of communication in order to ensure that information was
       effectively shared between Department components having
       interagency relationships and liaisons.
                                     - 51 -
C. An Interagency Coordination Program as Envisioned in the CIP
   Plan Was Not Implemented

     Although the CIP Plan contained comprehensive requirements for
implementing an effective interagency coordination program, as detailed
below, such a program was never established within the Department.

  •   IMSS officials did not ensure that components’ headquarters and field
      offices developed lists of current federal and interagency liaisons and
      memoranda of understanding associated with CIP.

  •   The Department had not established a method for ensuring
      coordination between the various Department entities and liaisons with
      outside organizations, as these liaisons relate to critical infrastructure
      protection.

  •   Components had not forwarded to the IMSS lists of liaisons and
      relationships. Consequently, the centralized database of liaisons and
      relationships was not created and maintained, nor is any entity within
      the Department serving as the focal point for all liaisons and
      relationships pertaining to CIP.

  •   A working group, or other means of communication, was not
      established to ensure that information is effectively shared between
      Department components having interagency relationships and liaisons.

D. Reasons Why an Effective Interagency Coordination Program Was
   Never Established

       A primary reason for the lack of an interagency coordination program
is that the CIP Task Force charged with serving as the focal point and
maintaining the needed database did not address any of the CIP elements
related to interagency coordination. The Task Force last met during calendar
year 2000 and no longer exists. There were two reasons why the
interagency coordination program as envisioned by the CIP Plan had not
been implemented.

       First, IMSS officials maintained that in developing the Department’s
MEI for IT assets, no Department IT system either received critical data from
external entities or provided data to external entities supporting national
security, national economic security, and crucial public health and safety
activities. Second, IMSS officials maintained that ongoing activities within
Department components effectively monitored interagency activity. For

                                     - 52 -
these reasons, IMSS officials believe that there was no need to implement a
vigorous interagency coordination program as called for in the CIP Plan.

      However, we concluded that: a) the IMSS did not properly determine
whether critical exchanges of information were ongoing between Department
components and other entities, and b) ongoing activities within Department
components did not adequately compensate for the lack of an effective
interagency coordination program as required by the CIP Plan.

(1) IMSS Did Not Properly Determine Whether Critical Exchanges of
    Information Were Ongoing Between Department Components
    and Other Entities

       In identifying critical IT systems, guidance published by the CIAO
states that federal agencies were initially required to develop an inventory of
all candidate IT systems. To identify the critical IT systems from the list of
candidates, agencies could complete an Infrastructure Asset Evaluation
Survey. This survey, developed by the CIAO, identifies seven “goals” and
specific functions within each goal that are characteristic of goals and
functions performed by critical IT systems. The goals identified in the
survey were:

   •   perform essential national security missions,

   •   support state and local governments’ ability to maintain order,

   •   ensure orderly functions of the economy,

   •   ensure the general public health and safety,

   •   deliver minimum essential public services,

   •   determine the dependency of other government programs on the
       Department’s IT systems (involving critical exchanges of information),
       and

   •   ensure delivery of essential private sector services.




                                     - 53 -
      Although there is no hard and fast rule for determining what is or is
not a critical IT system, in general the more goals an IT system supports –
and the more significant functions the system performs within each goal –
the more important the IT system is. The more important the IT system is,
the higher the chances that the system will be identified as a critical asset.

       We determined that the IMSS did not follow CIAO guidance in
identifying its critical IT assets. IMSS officials did not require components to
develop initial inventories of critical IT assets based on the Infrastructure
Asset Evaluation Surveys of all candidate systems. Instead, components
were requested early in calendar year 2000 to develop their inventories
based on a four-tiered Impact Level Rating Scheme as described in the
following chart.

                         Impact Level Rating Scheme

       Impact                              Description
        Level
                Would the loss of the asset:
          1     Prevent the Department from fulfilling its mission, critical national
                security or national security functions, or from providing continuity of
                core government services.
                (Systems that fall in this category constitute critical assets.)
          2     Significantly debilitate the ability of the Department from fulfilling its
                mission, critical national security or national security functions, or from
                providing continuity of core government services.
          3     Somewhat interfere with the Department’s ability to fulfill its mission,
                critical national security or national security functions, or from providing
                continuity of core government services.
          4     Have no appreciable impact on agency missions.
            Source: IMSS Instructions for Selecting Critical Assets

      This approach provided little assurance that candidate IT systems were
adequately evaluated against the more comprehensive seven goals and the
corresponding functions within each goal identified in the Infrastructure
Asset Evaluation Survey. For example, unlike the Infrastructure Asset
Evaluation Survey, the Impact Level Rating Scheme did not require
components to consider dependency of other government programs on the
Department’s IT systems and whether critical information exchanges were
occurring.

       It was only after components had already developed their initial
inventories of critical IT assets that the IMSS provided components with the
Infrastructure Asset Evaluation Surveys. For each critical IT system
identified, components were instructed to complete the survey for only one
of the seven goals identified in the survey. The survey goal selected for
                                       - 54 -
completion was to be determined by the primary goal actually supported by
each critical IT system.

      We identified two significant deficiencies with this approach. First, the
purpose of the surveys was to identify critical IT systems from a list of
candidate systems. Using the surveys on an already existing list of critical
IT systems selected under a less comprehensive methodology was of
questionable benefit. Second, IT systems may possess several goals
characteristic of a critical IT system. Requiring components to complete a
survey for only one of the seven goals risks overlooking other goals that
may, upon closer analysis, elevate IT systems to critical status.

       The net effect of these weaknesses in identifying the Department’s
critical IT systems is that neither the IMSS nor the Department components
considered the dependency of other government programs on the
Department’s IT systems, and whether critical exchanges of information
were occurring. As a result, Department IT systems that exchanged critical
information may not have been identified and considered for protection
under the CIP program.

     Evidence that such exchanges of critical information may be occurring
was documented in a November 13, 2001, memorandum to Department
CIOs. In that memorandum, the Acting Assistant Attorney General for
Administration stated:

      The recent attacks of September 11, 2001, on the United States
      underscore the critical need for the Department of Justice to
      take an aggressive role in preventing aliens who engage in or
      support terrorist activity from entering the United States . . .

      Information technology is a tool that can be used to fight
      terrorism through improved information sharing with other
      federal agencies. Through information sharing the overall
      investigative and intelligence analysis capabilities of the federal
      government can be enhanced . . . Towards this end, I have
      initiated an effort within JMD to summarize the current
      information exchanges between the Department, the
      Department of State, and the United States Customs Service.

      A draft diagram and a description of the information flows as
      currently understood by JMD have been prepared. This diagram
      and the associated narrative provide an overview of the
      structured information exchanges between four Department


                                     - 55 -
       components, the Department of State, and the United States
       Customs Service.

       The diagram provided by the Acting Assistant Attorney General is
presented in Appendix 9. Although the draft diagram showed 19 FBI, DEA,
and INS IT systems involved in information exchanges with the
Department of State and the United States Customs Service, only 4 of these
IT systems were identified by the Department as being critical in the
January 2001 inventory and 2 were identified as being critical in the
December 2002 inventory.39 Information Management and Security Staff
officials indicated that the Department received no critical information from
external entities and indicated that if Department information is critical to
the mission of the external entities, then the external entity representative
should contact a Department representative. We previously noted in this
report that liaisons had not been identified to facilitate the communication
needed in this regard.

      Among the remaining 17 systems not identified in either Department
inventory are the FBI’s National Instant Criminal Background Check System
(NICS) and Automated Case Support (ACS) System, and the DEA’s Narcotics
and Dangerous Drugs Information System (NADDIS) as described below.
We are not concluding that these are critical systems, but we believe that
these systems provide important information to external entities. Without
an assessment made in concert with external entities, the Department
cannot ensure that its assets critical to the mission of other agencies have
been adequately identified.

   •   NICS: The NICS allows firearms dealers to run background checks to
       ensure firearms are not sold to individuals who are prohibited from
       possessing firearms. The Department of State sends paper documents to
       the FBI identifying individuals who have renounced their United States
       citizenship. These individuals are listed in NICS as ineligible for firearm
       transfers.

   •   ACS: The Department of State transmits name check requests to the FBI
       over a secure network using magnetic tape. The names are checked
       against the FBI’s ACS System. Paper notifications are sent back to the
       Department of State.

   •   NADDIS: The NADDIS system provides information to DEA personnel on
       people, businesses, vessels, and selected airfields identified through the

       39
           The four IT systems identified as critical included the FBI’s NCIC 2000 Database,
the FBI’s IAFIS, the INS’s IDENT System, and the INS’s CIS.

                                           - 56 -
      DEA investigative reporting system. The DEA provides a tape from
      NADDIS identifying persons to the Department of State on a monthly
      basis. The Department of State loads the identification into their
      Consular Lookout and Support System.

(2) Ongoing Activities Within Department Components Did Not
    Adequately Compensate for the Lack of an Effective Interagency
    Coordination Program.

     The Department participates in two groups that have the potential to
compensate for the lack of an effective interagency coordination program.
These groups are the Information Technology Security Officers Working
Group (ITSOWG) and the Computer Crime and Intellectual Property Section
(CCIPS).

      The ITSOWG is composed of the designated computer security officers
or representatives from each of the components and JMD for the purposes
of:

  •   providing a Department forum for discussing IT security issues,
      problems, and problem resolution;

  •   providing for the review and discussion of technological developments
      in the field of computer security;

  •   increasing components’ awareness of IT security issues including
      threats to their environments;

  •   identifying security-related areas where Department standards and
      guidelines are lacking;

  •   assisting in the development of these standards and guidelines; and

  •   participating in the identification of IT security training needs.

      A JMD official also meets periodically with a working group managed
by the CCIPS of the Department’s Criminal Division to establish uniform
policy within the Department on computer crime issues. The CCIPS group
advises federal prosecutors and law enforcement agents, comments upon
and proposes legislation, coordinates international efforts to combat
computer crime, litigates cases, and trains law enforcement groups.

      Neither the ITSOWG nor the CCIPS group specifically addresses CIP
issues. Absent a working group or other means of communication, the

                                     - 57 -
Department cannot ensure that information between components is
effectively shared and CIP issues are addressed.

      According to IMSS staff, the IMSS partially identified the IT support
provided by other agencies and its support to other agencies by developing a
detailed analysis of systems and interrelations including the direction of the
data flow. However, the IMSS’s analysis does not provide all the data
elements required by the CIP Plan, including organizations involved,
Department representative, reason for liaison, Department obligations,
special considerations, and the primary mission of the outside organization.

E. Conclusions

       The Department’s CIP Plan addressed the critical need for cooperation
with the various agencies involved in the protection of the critical
infrastructure. The CIP Plan defined and established the specific liaisons
necessary for the Department to implement a sound CIP program. However,
an effective interagency coordination program was not established because
the Department did not: 1) ensure that components developed lists of
current liaisons and memoranda of understanding associated with CIP;
2) establish a method for ensuring coordination between the various
Department entities and liaisons with outside organizations; 3) create and
maintain a centralized database of liaisons and relationships, or establish an
entity within the Department to serve as the focal point for all liaisons and
relationships pertaining to CIP; and 4) establish a working group, or other
means of communication, to ensure that information is effectively shared
between Department components having interagency relationships and
liaisons.

      These problems resulted in part from the CIP Task Force’s cessation of
operation in 2000. In addition, the IMSS did not adequately determine
whether critical exchanges of information were ongoing between Department
components and other entities, and it did not initiate another method of
compensating for the interagency coordination program called for in the
CIP Plan.

      Without an effective program for interagency coordination, the
Department cannot ensure effective coordination links exist and that
information will be accessible from Department assets when needed.




                                    - 58 -
F. Recommendations

      We recommend that the Assistant Attorney General for Administration:

21.   Compile a list of relationships and contacts with other federal agencies
      and other entities (foreign, state and local agencies, and the private
      sector).

22.   Contact external entities to determine whether any Department assets
      are critical to their missions.

23.   Develop and maintain a database to track liaison and interagency
      relationships.

24.   Establish a working group to address CIP issues.




                                    - 59 -
4. MEETING DEPARTMENT RESOURCE AND ORGANIZATIONAL
   REQUIREMENTS

      The Department’s CIP Plan required the identification of
      resources and organization requirements necessary to protect
      critical assets. This was to be accomplished largely through the
      efforts of the CIP Task Force. Although the CIP Task Force
      ceased operating in 2000 and never fully carried out the
      responsibilities in this area of the Plan, the Department has
      undertaken some efforts to ensure its resource and
      organizational requirements are adequately determined.
      However, full implementation of the CIP Plan has not been
      achieved. Studies contracted for by JMD in lieu of CIP Task
      Force studies have not assessed the linkage between budgetary
      and personnel shortfalls and the Department’s critical
      infrastructure weaknesses. Completion of this activity is crucial
      to the Department’s efforts to ensure that its resource and
      organization requirements have been met.

A. Requirement in the CIP Plan

      The Department’s 1999 CIP Plan provided that:

      Based upon the results of the vulnerability assessments,
      subsequent mitigation and response plans, additional resources
      will have to be identified, developed, and/or procured to ensure
      the protection of the Department’s critical infrastructure.

      The purpose of this section [of the Plan] is to identify, develop,
      and/or procure the necessary resources to ensure the protection
      of the Department’s critical infrastructure. Also, the section will
      determine and establish the appropriate organizational structure
      through which the protection of identified critical infrastructure
      assets will be implemented and sustained.

      According to the Plan, the CIP Task Force or its follow-on was to begin
a study to determine the appropriate organizational structure for
implementing the actions called for under the Plan.

      We found that the IMSS did not address the resource and
organizational requirements in the April 2003 draft revision of the CIP Plan.
The IMSS staff stated that there was no reason for the omission, but it is
expected to be in the next CIP Plan. The CIP Plan is expected to be revised
again after the Department completes its Project Matrix review.

                                    - 60 -
B. Implementation of the CIP Plan for Resource and
   Organizational Requirements

      The CIP Plan required the CIP Task Force to conduct a study in 1999 to
determine the appropriate organizational structure for implementing the
actions called for under the Plan. The study was to address issues such as
organizational makeup (in terms of the appropriate program office
representation), mission, responsibilities, intra-Department liaison, and
reporting chain. The study was also to assess the linkage between
budgetary and personnel shortfalls and the Department’s critical
infrastructure weaknesses in such areas as computer security, network
security, network configuration control, aging security systems, and lack of
technically qualified security professionals. However, the CIP Task Force did
not accomplish the study referenced above and, as noted in Finding 1, staff
of the IMSS was unable to explain why the Task Force stopped convening
during calendar year 2000.

      We sought to determine if the planned activities had been completed
separately by JMD. JMD contracted for two studies to determine resource
requirements. First, an August 7, 2000, “Operational Concept Document for
Information Security Program” (Operational Concept Document) was
intended to provide an assessment of the IT security program’s focus and/or
organization to better serve the continuously changing needs of its customer
base. The resulting 17-page report discussed the critical elements
necessary for a successful IT security program and presented a framework
for the realignment of the Department’s IT security organization. Regarding
the organization for IT security, the report stated:

     DOJ is comprised of many components with different focuses and
     interests. This very diversity accentuates the need to have an
     enterprise-wide Department of Justice IT security program that
     provides departmentwide policy, minimum-security
     requirements, standards, guidance, enforcement, and other
     value-added services to the components.

     A more effective program organization would be a single
     organization, with a single program, where all IT is covered
     under a single policy, inspected against the same requirements,
     trained by a single training staff, subject to a single set of
     standards, required to undergo a consistent security process,
     and where all IT users have a single organization to contact for
     IT security assistance.



                                   - 61 -
      We compared the Operational Concept Document to the requirements
of the CIP Plan. The Operational Concept Document met some, but not all,
of the CIP Plan requirements. The Document briefly addressed
organizational makeup, mission, responsibilities, and policy
recommendations for computer and network security. It also presented a
framework for the realignment of the Department IT security organization.
However, the Operational Concept Document did not meet the plan
requirements for a study of intra-Department liaisons, the reporting chain,
responsibilities, and the linkage between budgetary and personnel shortfalls
and critical infrastructure-specific weaknesses.

      Recognizing the need for a more sophisticated study of resource
needs, in light of the attacks of September 11, 2001, and the Department’s
crucial counterterrorism responsibilities, in July 2002 the Department
contracted for an additional study, “The Information Technology Workforce
Assessment” (Workforce Assessment).

      In completing the Workforce Assessment, a contractor was engaged to
work with the Office of the CIO to identify the additional workforce capability
needs of a newly proposed CIO organization. The resulting 165-page report,
dated October 15, 2002, provided assessments of human capital capabilities,
human capital solutions, staffing capabilities gaps and gap-closing
strategies, and an implementation plan.

      We compared the Workforce Assessment to the study requirements
contained in the 1999 CIP Plan as noted above. The Workforce Assessment
met the plan requirements for study of organizational makeup, mission,
responsibilities, intra-Department liaisons, and reporting chain. However,
neither the Workforce Assessment nor the previously completed
“Operational Concept Document for Information Security Program” provided
an assessment of the linkage between budgetary and personnel shortfalls
and the Department’s critical infrastructure-specific weaknesses in such
areas as computer security, network security, network configuration control,
aging security systems, and lack of technically qualified security
professionals. We asked the IMSS staff for an explanation as to why no
assessment of linkages between budgetary and personnel shortfalls and the
Department’s critical infrastructure weaknesses was made but we received
no response.

      In summary, the October 2002 Workforce Assessment essentially
completes the Department’s planned 1999 activity to determine the
appropriate organizational structure for implementing actions called for
under the CIP Plan. Information Management and Security Staff officials
indicated that they believed the CIP Plan requirement for organizational

                                    - 62 -
requirements was completed in FY 2000 with the preparation of the
Operational Concept Document. While we agree that the
Operational Concept Document met some of the plan requirements, it was
not sufficiently detailed to provide Department officials with the support
needed to effectively determine resource and organizational requirements.
In addition, the Department still needs to complete an assessment of the
linkage between budgetary and personnel shortfalls and the Department’s
critical infrastructure weaknesses. Completion of this activity is crucial to
the Department’s efforts to ensure that its resource and organization
requirements can be met.

C. Recommendation

      We recommend that the Assistant Attorney General for Administration:

25.   Complete an assessment of the linkage between budgetary and
      personnel shortfalls and the Department’s critical infrastructure
      weaknesses.




                                    - 63 -
5. ESTABLISHING EFFECTIVE RECRUITING, EDUCATING, AND
   AWARENESS PROGRAMS

      The Department’s 1999 CIP Plan recognized the need to recruit,
      retain, and educate both Department and contractor personnel in
      the areas of physical and information security. The Plan called
      for the completion of various programs to ensure that these
      needs were met. The Department has accomplished some of its
      efforts in the areas of recruitment, education and awareness.
      For example, the Department recently implemented a
      departmentwide initiative to provide computer security
      awareness training. However, we found that the recruitment
      and retention program called for in the Plan was not fully
      implemented.

A. Planned Programs

       The April 1999 CIP Plan stated that the Department would establish a
program to address the recruitment and retention requirements necessary
for a successful critical infrastructure protection program. The Department’s
1999 CIP Plan recognized the need to recruit, retain, and educate both
federal and contractor personnel in the areas of physical and information
security. The requirements in this area were to include creating or
modifying new job series/position descriptions to ensure that individuals
charged with oversight and protection of the identified critical infrastructure
assets are competent and trained. This effort was also to address the
retention of trained personnel in order to ensure the continuity of program
execution. Training and capability requirements for individuals were to be
based on national standards and criteria.

       The CIP Plan also stated that the Department would establish an
education, training, and awareness program specifically targeted at critical
infrastructure protection. This program was to ensure that all personnel
within the Department recognize their individual responsibilities for
infrastructure protection and the potential outcomes of negligent actions on
their part.

      To accomplish the requirements of the CIP Plan, the CIP Task Force
was to work with JMD Personnel Staff to develop criteria for modifying or
creating a new job series in support of critical infrastructure protection. The
CIP Task Force was also to work with the Department’s CIO and



                                     - 64 -
Security Officer to develop and promulgate training criteria and standards to
ensure that individuals in key positions with the Department were proficient
in their jobs, as related to critical infrastructure protection.

      We found that the IMSS failed to address requirements for
recruitment, education, and awareness in the April 2003 draft revision of the
CIP Plan. The IMSS staff indicated that there was no reason for the
omission, but they expect to include these areas in the next CIP Plan. The
CIP Plan is expected be revised again after the Department completes its
Project Matrix review.

B. Recruitment

      We requested documentation for the recruitment and retention
program established under the requirements of the CIP Plan. We were told
that JMD had not established the recruitment program identified as
necessary to implement a successful CIP program. We requested an
explanation from IMSS staff as to why no formal recruitment program was
established, but we received no response. We discussed with IMSS staff the
process by which IT security personnel are recruited. We were told that the
IMSS recruits for IT personnel through the Office of Personnel Management
via job series GS-2210, Information Technology Specialist. Although we
were told that the generic IT Specialist announcement is modified to meet
the CIP role fulfilled by the IMSS, the IMSS was unable to provide copies of
the modified announcements for our review.

C. Education and Training

      The CIP Plan recognizes that education and training are necessary for
the successful implementation of any information security program. These
elements are related, but the elements involve distinctly different levels of
learning. According to the CIAO’s Practices for Securing Critical Information
Assets guidance:

      Training is geared to understanding the security aspects of the
      particular IT systems and applications that the individual uses. For
      example, all users need to learn the security features of the office
      automation software resident on their respective systems. Users also
      need to understand the security features of the local area network to
      which they are connected, as well as security issues related to
      connectivity to the Internet, intranet, and/or extranet. Education
      differs from training in both breadth and depth of knowledge and skills
      acquired. Security education, including formal courses and


                                    - 65 -
     certification programs, is most appropriate for an organization’s
     designated security specialists.

      The Department’s July 2001 document titled, “The Information
Technology Security Awareness, Training, and Education Standard and
Implementation Guidelines” (Guidelines), contained minimum training
requirements and implementation guidelines applying to all individuals,
organizations, and entities that control, operate, maintain, and access
Department of Justice systems containing SBU information.

       The Guidelines generally met the requirements of the CIP Plan for
training and established that full-time security professionals (regardless of
job title, series, or current level of expertise) must receive 40 hours of
formal security training per year and all part-time security professionals
must receive 24 hours of formal security training per year. This training
may include, but is not limited to, workshops, free seminars, security
conferences, computer-based training, and product-specific training, as long
as the total number of hours in attendance is equal to or greater than 40.
However, attendance at vendor marketing briefings cannot be used to meet
this requirement.

       We sought to test the extent to which IMSS staff met the annual
training requirement. We were told that each IT security staff member was
required to have the necessary 40 hours of security training and had met
that requirement annually. However, we were unable to verify this assertion
because the IMSS retained documentation only for course registration and
not for course completion.

D. Awareness

      Security awareness can create sensitivity to the threats and
vulnerabilities of computer systems and the recognition of the need to
protect data, information, and the means of processing them. The
fundamental value of IT security awareness programs is that the programs
set the stage for further training by bringing about a change in attitudes,
which in turn can change the organizational culture.

       The IMSS has implemented an IT Security Awareness Training
Initiative for the Department. As part of this effort, the Department uses a
commercial off-the-shelf product, known as Computer Security Awareness
Training (CSAT), to provide awareness training. The CSAT is a web-based
training tool that delivers important general IT security training to all
Department Government and Contractor system users. The CSAT fulfills
training requirements by providing instruction on a number of security topics

                                    - 66 -
such as the proper selection and protection of passwords, physical security,
e-mail and Internet security, and virus protection. The Department’s efforts
appear sufficient to satisfy CIP requirements for computer awareness.

E. Recommendation

      We recommend that the Assistant Attorney General for Administration:

26.   Establish a personnel recruitment and retention program as envisioned
      in the CIP Plan.




                                   - 67 -
6. FOLLOW-UP ON THE PRIOR OIG AUDIT OF DEPARTMENT
   CRITICAL INFRASTRUCTURE PLANNING FOR THE PROTECTION OF
   COMPUTER BASED INFRASTRUCTURE

      In our November 2000 report on “Department Critical
      Infrastructure Protection – Planning for the Protection of
      Computer Based Infrastructure,” we found that the Department
      had not yet: 1) identified all of its mission-essential assets,
      2) assessed the vulnerabilities of each of its systems,
      3) developed remedial action plans for identified vulnerabilities,
      or 4) developed a multi-year funding plan for reducing
      vulnerabilities. During this current audit, we tested follow-up
      actions taken regarding these recommendations. We found that
      that the IMSS had completed some of the required corrective
      actions, but further work is required regarding the MEI
      inventory, plans to address weaknesses identified in vulnerability
      assessments, and development of a multi-year funding plan for
      the remediation of vulnerabilities.

       PDD 63 required that the Department and other government
departments and agencies prepare plans for protecting their critical
infrastructure. The plans required the determination of the Department’s
minimum essential infrastructure, an assessment of each asset’s
vulnerabilities, and plans to remediate those vulnerabilities. Our prior audit
focused on the adequacy of the Department’s planning and assessment
activities for protecting its critical computer-based infrastructure.

      In our November 2000 report, we recommended that the Assistant
Attorney General for Administration:

 •    inventory the Department’s MEI in a manner that: a) uses the CIAO’s
      definition of MEI; b) links the MEI to those Department missions that
      are absolutely necessary to national security, national economic
      security, or continuity of government operations; and
      c) documents the criteria used to select each asset;

 •    complete vulnerability assessments of the Department’s MEI by
      December 31, 2000;

 •    develop remedial plans to address weaknesses identified by the
      vulnerability assessments; and

 •    develop a multi-year funding plan for the remediation of
      vulnerabilities.

                                    - 68 -
      In October 2000, JMD concurred with our findings and
recommendations, and agreed to implement the appropriate corrective
actions. During our current audit, we tested the extent to which the
recommended corrective actions have been completed.

A. Inventory the Department’s MEI

       The Department revalidated its MEI in December 2002. We found that
the Department utilized the CIAO’s definition of MEI and a set of modified
surveys to validate the MEI. Agency MEI was defined as “the framework of
critical organizations, personnel, systems, and facilities that are absolutely
required in order to provide the inputs and outputs necessary to support
core processes. Core processes are those that are essential to
accomplishing the organization’s core missions as they relate to national
security, national economic security, or continuity of government services.”

      For each asset included in the December 2002 revalidated MEI, the
IMSS provided appropriate links to the criteria and strategic goals contained
in the Department’s strategic plan revised as of November 2001.

       The IMSS established and documented the selection criteria and
procedures used in developing the December 2002 revalidated MEI. The
IMSS also worked with the components in revising the MEI inventory and
coordinated its activities with the CIAO. However, as noted in Finding 3 of
this report, we are concerned that neither the IMSS nor the Department
components considered the dependency of other government programs on
the Department’s IT systems, and whether critical exchanges of information
were occurring. As a result, Department IT systems that exchanged critical
information with external entities may not have been identified and
considered adequately for protection under the CIP program.

B. Complete Vulnerability Assessments of the Department’s MEI by
   December 31, 2000

      In March 2002, the Department completed a vulnerability assessment
for assets contained in the January 2001 MEI inventory. However, as
discussed in Finding 1 of this report, vulnerability assessments have not
been completed for assets newly added to the MEI and the assets of the
ATF.




                                    - 69 -
C. Remedial Plans to Address Weaknesses Identified by the
   Vulnerability Assessments

     Finding 1 of this report details our significant concerns regarding the
management of a risk mitigation program, and we provide eight
recommendations regarding improvement of this program.

D. Multi-Year Funding Plan for the Remediation of
   Vulnerabilities

      As noted in Finding 1 of this report, as part of the March 2002
Vulnerability Assessment, the Department prepared a multi-year funding
plan. The Plan identifies that the Department is expected to have spent
$128 million in FY 2003 to improve IT security. However, the plan is not
linked to the identified vulnerabilities and is not useful in identifying whether
the funding amounts presented are adequate to remediate IT systemic
vulnerabilities.




                                     - 70 -
                                                              APPENDIX 1

              OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The primary objectives of this audit were to determine whether the
Department has effectively implemented its plans for: 1) mitigating risks;
2) managing emergencies; 3) coordinating resources with other agencies;
4) meeting its resource and organizational requirements; and 5) recruiting,
educating, and maintaining awareness relating to protecting its critical
cyber-based infrastructures.

Scope and Methodology

      The audit was performed in accordance with Government Auditing
Standards, and included tests and procedures necessary to accomplish the
audit objectives. We conducted work at the offices of JMD’s Information
Management and Security Staff located in Washington, D.C.

      Our audit began July 22, 2002. To perform our audit, we conducted
interviews with officials from JMD. Justice Management Division officials
were from the IMSS, CSS, SEPS, and Budget Staff. Additionally, we
reviewed documents related to CIP management policies and procedures,
project management guidance, strategic plans, IT systems certification and
accreditation, budget documentation, organizational structures,
Congressional testimony, and prior GAO and OIG reports.

     To determine whether the IMSS was effectively managing the CIP
program, we followed guidance issued by the PCIE and ECIE Audit
Committee. See Appendix 7 for description of PCIE/ECIE.

      We compared the evidence collected from documents reviewed and
interviews to the practices defined in the Department’s CIP Plan; PDD 63;
and The Practices for Securing Critical Information Technology Assets, issued
by the CIAO’s office. Additionally, we followed up on recommendations from
our prior audit report, entitled “Department Critical Infrastructure – Planning
for the Protection of Computer Based Infrastructure Report,” issued
November 2000. In assessing the status of the Department’s effort to close
the recommendations, we assessed the adequacy of: 1) the development of
the MEI, particularly after the 9/11 terrorist attacks, 2) the vulnerability
assessment, and 3) the multi-year funding plan.



                                    - 71 -
       To determine whether the Department had adequately implemented
its Risk Mitigation Plan for vulnerabilities identified in the vulnerability
assessment, we reviewed the vulnerability assessment, tabulated the
vulnerabilities identified, tracked the status of the IMSS’s efforts in
monitoring mitigation activities, and noted variances. Additionally, based
on comments by IMSS officials, we assessed whether resources were
adequate to fund the risk mitigating activities and whether risk mitigation
activities would be completed by May 2003.

      In assessing the Department’s implementation of their emergency
management program, IMSS staff provided a description of the emergency
management program. We examined the Department’s management policy
for: 1) indications and warnings; 2) incident collection, reporting, and
analysis; 3) response and 4) contingency plans. Additionally, we attempted
to verify whether these functions were adequately tested.

       Our assessment of interagency coordination included a review of the
methodology that the IMSS used to determine the critical support other
entities’ assets provide to the Department and that the Department provides
to other agencies. We assessed the Infrastructure Asset Evaluation Surveys
completed by Department components. Additionally, we determined the
status of the development of a list of liaisons and interagency relationships
as it relates to CIP.

      We evaluated the Department’s comparison of its organizational
requirements to existing resources and the status of corrective actions or
plans to correct the variances identified. We reviewed independent studies
completed to analyze current organizational makeup, identify needed skills
in the IT security staff, identify gaps, and propose organizational and staffing
changes.

       We evaluated the IMSS’s current recruitment efforts and the generic
criteria used to recruit IT security professionals. We reviewed resource
needs identified through other reviews and, as it pertained to CIP, evaluated
whether variances had been corrected.

       We evaluated education and training for computer security
professionals. We reviewed the generic requirements for the GS-2210,
Computer Specialist, job series and evaluated the specific IMSS training
requirements. We further assessed awareness policy, the purpose of which
is to sensitize workers regarding the importance of security.




                                     - 72 -
                                                         APPENDIX 2

                 ABBREVIATIONS AND ACRONYMS

ACS       Automated Case Support
ATF       Bureau of Alcohol, Tobacco, Firearms, and Explosives
C&A       Certification and Accreditation
CCIPS     Computer Crime and Intellectual Property Section
CIAO      Critical Infrastructure Assurance Office
CIO       Chief Information Officer
CIP       Critical Infrastructure Protection
CIPTF     Critical Infrastructure Protection Task Force
CIS       Central Index System
CJIS      Criminal Justice Information Services
CSAT      Computer Security Awareness Training
CSIRC     Computer Security Incident Response Capability
CSS       Computer Services Staff
DEA       Drug Enforcement Administration
DHS       Department of Homeland Security
DOJ       Department of Justice
DOJCERT   Department of Justice Computer Emergency
             Response Team
ECIE      Executive Council on Integrity and Efficiency
EIS       El Paso Intelligence Center Information System
ENFORCE   Enforcement Case Tracking System
EPIC      El Paso Intelligence Center
FBI       Federal Bureau of Investigation
FedCIRC   Federal Computer Incident Response Center
FISA      Foreign Intelligence Surveillance Act
GAO       General Accounting Office
GISRA     Government Information Security Reform Act
GSA       General Services Administration
IAFIS     Integrated Automated Fingerprint Identification System
IDS       Intrusion Detection System
IDENT     Automated Biometric Identification System
IISNET    Intelligence Information System Network
IMSS      Information Management and Security Staff
INS       Immigration and Naturalization Service
INSINC    INS Integrated National Communications System
IT        Information Technology
ITSOWG    Information Technology Security Officers Working
             Group
ITSS      Information Technology Security Staff
IV&V      Independent Verification and Validation
                                 - 73 -
JCN      Justice Consolidated Network
JDC-D    Justice Data Center – Dallas
JDC-W    Justice Data Center - Washington
JMD      Justice Management Division
MEI      Minimum Essential Infrastructure
MAN      Metropolitan Area Network
NADDIS   Narcotics and Dangerous Drugs Information System
NCIC     National Crime Information Center
NICS     National Instant Criminal Background Check System
NIPC     National Infrastructure Protection Center
NSI      National Security Information
OIG      Office of the Inspector General
OMB      Office of Management and Budget
POA&Ms   Plans of Actions and Milestones
PCIE     President’s Council on Integrity and Efficiency
PDD      Presidential Decision Directive
SAMNET   Secured Automated Messaging Network
SBU      Sensitive but Unclassified
SEPS     Security and Emergency Planning Staff
SIOC     Strategic Information Operations Center
SMART    Security Management and Report Tool
SOD      Special Operations Division
WAN      Wide Area Network




                               - 74 -
                                                                 APPENDIX 3

         STATEMENT ON COMPLIANCE WITH LAWS AND
                      REGULATIONS

       We have audited the Department’s implementation of plans to protect
its cyber-based infrastructure. We reviewed the Department’s efforts to
mitigate risks identified from vulnerability assessment; manage
emergencies; coordinate with other agencies; meet its resource and
organizational requirements; and assess recruitment, education, and
awareness efforts.

       In connection with the audit, and as required by Government Auditing
Standards, we reviewed program activities and records to obtain reasonable
assurance about the Department’s compliance with laws and regulations
that, if not complied with, we believe could have a material effect on
program operations. Compliance with laws and regulations applicable to the
Department’s critical infrastructure planning is the responsibility of the
Justice Management Division.

      Our audit included examining, on a test basis, evidence about laws and
regulations. Specifically, we conducted our tests against the relevant
portions of:

   •   Presidential Decision Directive 63, The Clinton Administration's Policy
       on Critical Infrastructure Protection, dated May 22, 1998;

   •   Practices for Securing Critical Information Assets, Critical
       Infrastructure Assurance Office, dated January 2000;

   •   Department of Justice Order 2640.2D, Information Technology
       Security, approved July 12, 2001; and

   •   The Government Performance and Results Act of 1993.

      Except for those issues cited in the Findings and Recommendations
section of the report, our tests indicated that, for those items reviewed, the
Department was in compliance with the laws and regulations referred to
above. With respect to those transactions not tested, nothing came to our
attention that caused us to believe that Department management was not in
compliance with the laws and regulations cited above.




                                      - 75 -
                                                               APPENDIX 4

            STATEMENT ON MANAGEMENT CONTROLS

       In planning and performing our audit of the Department’s
management of its planning and assessment activities for protecting its
critical infrastructure, we considered the Department’s management controls
for the purpose of determining our auditing procedures. This evaluation was
not made for the purpose of providing assurance on the management control
structure as a whole; however, we noted certain matters that we consider
reportable conditions under Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operation of the management
control structure that, in our judgment, could adversely affect the
Department’s ability to effectively manage projects in support of its CIP
planning. During our audit, we found the following management control
deficiencies.

   •   The IMSS did not adequately oversee risk mitigation actions from
       components to ensure that vulnerabilities would be mitigated by
       May 2003.

   •   The Department has not ensured testing of its contingency plans for
       the Department's critical systems or other aspects of its emergency
       management plan.

   •   The Department has not documented its interagency and liaison
       relationships.

   •   The IMSS could not document that the Department's critical systems
       complied with the Department's requirements (Department Order
       2640.2D).

       Because we are not expressing an opinion on the Department’s overall
management control structure, this statement is intended for the
information and use of the Department in managing its CIP program. This
restriction is not intended to limit the distribution of this report, which is a
matter of public record.




                                     - 76 -
                                                                           APPENDIX 5

            DEPARTMENT OF JUSTICE’S COMPUTER-BASED
              MINIMUM ESSENTIAL INFRASTRUCTURES

Department                   Assets from                               Assets from
Component                 January 2001 MEI                        December 2002 MEI
   DEA              El Paso Intelligence Center (EIS)                   EPIC EIS
                             Mercury (M2K)                                 M2K
                                   Merlin                                 Merlin
                                 Firebird                                Firebird
                               Model 204                                Model 204
   FBI                                                         Centralized Data Intercept
                                                                   Electronic File Room
                                                                   Wide Area Network
                                                                         GESCAN
                                                                Firebird nodes in SOD and
                                                                     Command Center
                                                                    Key Asset Database
                                                                   Secure Radio System
                                                             Digital Storm Collection Systems

                      Mainframe and applications                Mainframe and applications

                 Criminal Justice Information System
                              (CJIS – WAN)
                                 InfraGard
               Integrated Automated Fingerprint ID System                 IAFIS
                                   (IAFIS)
             National Crime Information Center System 2000              NCIC 2000
                                (NCIC 2000)
                     FBI Wide Area Network (FBI NET)                     FBI NET
             Intelligence Information System (IISNET)
               Secured Automated Messaging Network
                                 (SAMNET)
   INS                 Central Index System (CIS)
                  Enforcement Case Tracking System
                                (ENFORCE)
                  Automated Biometric Identification
                             System (IDENT)
              INS Integrated National Communications
                             System (INSINC)
   JMD              Justice Consolidated Network (JCN)                     JCN
                     Justice Data Center (JDC) – Dallas                   JDC-D
                            Computing Platforms
                     Justice Data Center – Washington                     JDC-W
                            Computing Platforms
                                                               Metropolitan Area Network
                                                                         (MAN)

    Source: Justice Management Division’s 1999 CIP Plan (with added appendices) and
    April 2003 Draft CIP Plan
    Legend: Bold Italicized items – Deletions from MEI;
              Bolded Items – Additions to MEI

                                           - 77 -
                                                                            APPENDIX 6

                        CRITICAL ASSET DESCRIPTIONS

Component             System Name                                  Description
   DEA                     EIS                    EIS is a centralized computer network
                                                  comprised of a message handling system, a
                                                  Geographic Information System, office
                                                  automation tools, the EPIC Internal
                                                  Database, and an automated external
                                                  databases query capability.

   DEA                    Mercury                 Mercury is a record message traffic system
                                                  providing DEA connectivity in offices within
                                                  and outside the continental United States
                                                  offices.

   DEA                     Merlin                 Merlin provides DEA intelligence analysts
                                                  with access to classified information and
                                                  special reports, office automation
                                                  capabilities, database information, and
                                                  analytical tools

   DEA                    Firebird                Firebird, the general support system, is the
                                                  DEA office automation infrastructure
                                                  upgrade initiative and provides DEA
                                                  personnel with an intuitive interface for
                                                  automating the investigative report process,
                                                  sharing case information, and performing
                                                  analysis and administrative activities.

   DEA           Centralized Data Intercept       The Centralized Data Intercept serves as a
                                                  central collection and distribution point for
                                                  the call data information related to Title III
                                                  intercepts.40



            40
              Title III of the Omnibus Crime Control and Safe Streets Act of 1968 provided for
    the use of court-ordered electronic surveillance in the investigation of certain specified
    violations. The law provided that wiretaps could be used in emergency situations, but if a
    warrant was not obtained within 48 hours then any information obtained could not be used
    in court or even revealed.

                                              - 78 -
DEA             Model 204             Model 204 Database Applications are
                                      mainframe investigative databases that
                                      support enforcement of laws.




DEA        Electronic File Room       The Electronic File Room is the central soft
                                      copy storage portion of the DEA SBU -
                                      investigative files.

DEA        Wide Area Network          DEA WAN consists of e-mail servers to
                                      support classified and SBU operations.

DEA              GESCAN               GESCAN is the DEA's automated message
                                      handling system.

DEA     Firebird nodes in Special   Firebird nodes consists of Firebird NT
      Operations Division (SOD) and Server, Exchange, MS Office, peripherals
            Command Center          workstations and LAN wiring for the backup
                                    of SOD and Command Center SBU NT file
                                    services and e-mail at the offsite facility in
                                    Chantilly, VA, to NT Server.

FBI    Mainframe and Applications     The FBI mainframes contain investigative
                                      and administrative applications necessary
                                      for the FBI to perform its designated duties
                                      in securing domestic security, enforcing
                                      Federal laws, and protecting the rights and
                                      interests of United States persons.

FBI        Key Asset Database         The Key Asset Database is a database of
                                      information concerning Key Assets within
                                      each field office's jurisdiction, establish lines
                                      of communication with Key Asset owners
                                      and operators to improve cyber and
                                      physical security, and enhance ongoing
                                      coordination with other Federal, state and
                                      local government entities, to ensure their
                                      involvement in the protection of critical
                                      infrastructures.




                                  - 79 -
FBI         CJIS WAN                CJIS WAN is the communications
                                    infrastructure that provides electronic
                                    connectivity between state/local law
                                    enforcement agencies, forensic/ballistic
                                    laboratories, and the FBI.


FBI          InfraGard              InfraGard is an information sharing system
                                    for computer intrusion incidents and system
                                    vulnerabilities.

FBI            IAFIS                IAFIS is a nationwide mainframe system
                                    that provides state of the art fingerprint
                                    identification processes and criminal history
                                    information for use by criminal justice and
                                    law enforcement agencies.

FBI         NCIC 2000               NCIC 2000 is the nationwide criminal justice
                                    information application that provides the
                                    law enforcement community with immediate
                                    access to documented criminal information
                                    vital to effective criminal justice operations.

FBI   Digital Storm Collection      The FBI's Digital Storm Collection Systems
              Systems               provide for the ability to operate Foreign
                                    Intelligence Surveillance Act (FISA)
                                    Electronic Surveillance activities and collect
                                    and remotely transfer FISA information.

FBI          FBI NET                FBINET is a general support system which
                                    provides worldwide communications support
                                    to the FBI's investigative and intelligence
                                    applications at 500 locations in the
                                    United States and approximately
                                    35 overseas locations.

FBI           IISNET                IISNET is a major application processing
                                    classified data. The system is considered to
                                    be the FBI's path for the Department of
                                    Defense TS/SCI network.




                                 - 80 -
FBI   Secure Mobile Radio System   The FBI's Land Mobile Radio Systems
                                   supports secure, mobile, tactical
                                   communications throughout the
                                   United States.

FBI            SAMNET              SAMNET is a major application and
                                   processes classified data. SAMNET is a
                                   messaging system and provides access to
                                   the Defense Special Security
                                   Communications System from
                                   approximately 60 field locations.

INS              CIS               CIS is a major application. CIS contains
                                   information on persons of interest to the
                                   INS, along with summary data from other
                                   INS systems.

INS           ENFORCE              ENFORCE is an event-based case
                                   management system, integrating subject
                                   processing, biometric identification,
                                   allegations and charges, preparation and
                                   the printing of appropriate forms.

INS             IDENT              IDENT is a two-fingerprint and photo image
                                   capture identification application that
                                   enables INS offers to quickly identify
                                   persons about whom INS has information.

INS            INSINC              INSINC is the INS data communications
                                   infrastructure for non-classified processing.

JMD           JCN-MAN              The MAN provides ATM services for
                                   22 Department resources and facilities
                                   within the D.C. metropolitan area.




                               - 81 -
JMD   JDC-D      JDC-D provides enterprise mainframe and
                 server platform support for mission critical
                 applications such as INS CIS.

JMD   JDC-W      JDC-W provides enterprise mainframe and
                 service platform support for mission critical
                 applications such as DEA Model 204
                 Database Applications.

JMD    JCN       JCN is a general support system providing
                 the Department with a state-of-the-art high
                 capacity communications backbone that
                 consolidates individual Department
                 components' telecommunications networks
                 into one network to reduce costs, increase
                 reliability, simplify network management,
                 provide a common security approach,
                 support emerging requirements of new
                 applications, and foster interoperability and
                 cooperation between components and non-
                 Department clients.




              - 82 -
                                                             APPENDIX 7

                      PCIE/ECIE DESCRIPTION

  The President's Council on Integrity and Efficiency (PCIE) and the
Executive Council on Integrity and Efficiency (ECIE) were established by
Executive Order 12805, May 11, 1992, to:

  •   address integrity, economy, and effectiveness issues that transcend
      individual government agencies, and

  •   increase the professionalism and effectiveness of Inspector General
      (IG) personnel throughout the government.

      To accomplish their mission, the PCIE and ECIE members look to
conduct interagency and inter-entity audit, inspection, and investigation
projects to promote economy and efficiency in Federal programs and
operations and address more effectively governmentwide issues of fraud,
waste, and abuse. The Council members also develop policies, standards,
and approaches to aid in the establishment of a well-trained and highly
skilled IG workforce.

      The PCIE is primarily comprised of the Presidentially-appointed IGs
and the ECIE is primarily comprised of the agency head-appointed IGs. The
Deputy Director for Management of the Office of Management and Budget
chairs both Councils. The Chair appoints a Vice Chair from each Council to
assist in carrying out its functions. Officials from the Office of Management
and Budget, Federal Bureau of Investigation, Office of Government Ethics,
Office of Special Counsel, and Office of Personnel Management serve on both
Councils.




                                   - 83 -
                                                                           APPENDIX 8

        THE TWELVE CRITICAL IT ASSET VULNERABILITIES

 Vulnerability#1:    Lack of auditing features, audit trails, or policies and
                     procedures.
          Threat:    All threat areas can impact this vulnerability.
      Discussion:    Twelve of the critical IT assets reported vulnerabilities in the
                     area of auditing features or audit trails. In some of the
                     systems, the auditing function was non-existent, either
                     because it was disabled or was not a feature of the software.
                     In other systems, the audit trail did not track activities of
                     system users to modify, bypass, or negate system security
                     safeguards. In some of the systems that had adequate audit
                     features, the logs were not reviewed, there were no policies or
                     procedures in place addressing reviewing the audit logs, or the
                     mechanism to review the audit logs were insufficient to detect
                     a pattern of access that would indicate a problem.

      Risk Rating:   Low – moderate
Mitigation Action:   Components ensure the current IT security policy on auditing
                     and audit trails is implemented on their critical IT assets. The
                     IMSS will utilize its internal database to track the resolution of
                     this vulnerability.




                                          - 84 -
Vulnerability #2:    Improper or inadequate password protection, password aging,
                     and construction.
          Threat:    All threat areas can impact this vulnerability.
      Discussion:    Nine of the critical IT assets have vulnerabilities related to
                     password aging, inadequate password protection, and
                     password construction. Some of the systems had more than
                     one vulnerability in this area.
                     • Three systems had vulnerabilities related to default
                          passwords.
                     • Three of the systems allowed passwords that either did not
                          meet the requirements of minimum length or did not
                          enforce the use of alphanumeric or special characters.
                     • Three systems had vulnerabilities associated with
                          unencrypted passwords.
                     • Three of the systems did not enforce the password aging
                          policy.
                     • Three of the systems had vulnerabilities associated with
                          users sharing passwords.
      Risk Rating:   Moderate
Mitigation Action:   Change initial login and default passwords immediately as the
                     login passwords can be easily guessed or are widely known.
                     Also, implement the current IT security policy on encryption,
                     identification and authentication, and password management.
                     Information Management and Security Staff will utilize its
                     internal database to track the resolution of this vulnerability.

Vulnerability #3:    Lack of Encryption.
         Threat:     All threat areas can impact this vulnerability.
     Discussion:     Lack of encryption was cited as a vulnerability in five SBU
                     critical IT systems. No National Security Information (NSI)
                     [systems] had vulnerabilities related to encryption.
                     • Four of the systems stored and transmitted highly sensitive
                           data without encryption, including passwords (mainframe
                           applications).
                     • Three systems transmit highly sensitive data without
                           encryption across the wide area network.
      Risk Rating:   Moderate
Mitigation Action:   Encrypt SBU data across general support systems because of
                     the impact the information has on the Department’s PDD 63
                     mission. The IMSS will utilize its internal database to track the
                     resolution of this vulnerability.




                                          - 85 -
 Vulnerability #4:   Software patches not installed for known vulnerabilities.
          Threat:    All threat areas can impact this vulnerability.
      Discussion:    Five systems were lacking patches to fix known
                     vulnerabilities.41 Exploiting known software vulnerabilities is a
                     primary means of gaining privileged access to a system or
                     implementing a denial of service attack.


      Risk Rating:   Moderate
Mitigation Action:   Program managers should establish a program to identify,
                     review, and install, as appropriate, patches to operating
                     systems and other software. The patches should also be
                     included in the configuration management documentation for
                     the system. The IMSS will utilize its internal database to track
                     the resolution of this vulnerability.

Vulnerability #5:    Lack of limited or untested contingency plans.
         Threat:     All threat areas can impact this vulnerability.
                     Six IT systems had vulnerabilities associated with contingency
      Discussion:    plans. The vulnerabilities included no contingency plans, limited
                     contingency plans that addressed only one scenario, and not
                     testing contingency plans.


     Risk Rating:    Moderate
       Mitigation    Develop and test contingency plans for all the critical assets.
          Action:    The Justice Management Division has made the testing of
                     contingency plans a performance measure for the Department
                     and will track the progress of the individual systems within the
                     tracking database.




      41
         Information Technology Laboratory Bulletin, “Computer Attacks: What They Are
and How to Defend Against Them,” May 1999. [This note appears in the “source” for this
table.]

                                          - 86 -
 Vulnerability #6:   Lack of computer security incident response capability.
          Threat:    All threat areas can impact this vulnerability.
      Discussion:    Four critical IT systems reported vulnerabilities in its Computer
                     Security Incident Response Capability (CSIRC).
                     • Two systems had a draft CSIRC plan that had not been
                          finalized.
                     • One system did not have procedures in place for reporting
                          incidents as required by the agency’s policy.
                     • The Computer System Security Officer for the last system
                          did not report incidents in the time frame specified by the
                          agency’s policy.
      Risk Rating:   Low
Mitigation Action:   Component Computer System Security Officers should review
                     and ensure their CSIRC plans are current and ensure the
                     officers are knowledgeable of the reporting requirements. The
                     IMSS will utilize its internal database to track the resolution of
                     this vulnerability.


Vulnerability #7:    Lack of access controls.
           Threat:   All threat areas can impact this vulnerability.
      Discussion:    Seven critical IT systems reported vulnerabilities in access
                     controls. The vulnerabilities included the failure to delete user
                     accounts when personnel are terminated and privileges when
                     access is no longer required due to a change of position or
                     task.

      Risk Rating:   Low – Moderate
Mitigation Action:   Components should ensure access privileges and accounts are
                     deleted when an individual is terminated and privileges are
                     periodically reviewed and updated based on “least privileges”
                     and “separation of duties.” The IMSS will utilize its internal
                     database to track the resolution of this vulnerability.




                                          - 87 -
 Vulnerability #8:   Lack of configuration management.
          Threat:    All threat areas can impact this vulnerability.
                     Nine critical IT systems reported vulnerabilities associated with
      Discussion:    configuration management. The vulnerabilities included
                     inadequate configuration management policies and
                     documentation and no process to review configuration
                     management documents on a regular basis.

      Risk Rating:   Moderate
Mitigation Action:   Components should ensure system administrators for critical
                     IT systems have established a configuration management
                     process for their systems. The IMSS will utilize its internal
                     database to track the resolution of this vulnerability.



 Vulnerability #9:   Lack of intrusion detection.
          Threat:    All threat areas can impact this vulnerability.
      Discussion:    Six critical IT assets reported vulnerabilities in the area of
                     intrusion detection. The affected critical IT systems either did
                     not have an intrusion detection capability, the intrusion
                     detection system did not provide real-time monitoring, or the
                     system did not monitor internal packet exchange traffic.


      Risk Rating:   Low – Moderate
Mitigation Action:   Components should ensure their critical IT systems have an
                     intrusion detection capability. Also, the Department
                     established a procedure for the components to report any
                     intrusions on their critical IT assets. The IMSS will utilize its
                     internal database to track the resolution of this vulnerability.


Vulnerability #10:   Lack of or inadequate virus protection.
           Threat:   All threat areas can impact this vulnerability.
      Discussion:    Six critical IT systems had vulnerabilities associated with lack
                     of or inadequate virus protection. Some of the systems did
                     not have virus protection installed on all the personal
                     computers and network servers; other systems did not update
                     the virus signature files on a regular basis.


      Risk Rating:   Moderate
Mitigation Action:   Components should ensure the critical IT systems have virus
                     detection software installed on all personal computers,
                     servers, and e-mail systems, and that the software conducts a
                     scan on a periodic basis. Additionally, the components should
                     frequently update the protection signature files so the critical
                     IT systems are protected from recently released viruses. The
                     IMSS will utilize its internal database to track the resolution of
                     this vulnerability.



                                          - 88 -
Vulnerability #11:   Exploitable network services enabled.
           Threat:   All threat areas can impact this vulnerability.
      Discussion:    Five critical IT systems had vulnerabilities associated with
                     exploitable network services. The network services enabled
                     on the systems included anonymous File Transfer Protocol
                     service, Internet Protocol forwarding, Network File System,
                     network finger service, and .rhosts file.


      Risk Rating:   Moderate – High
Mitigation Action:   Determine which services are currently running on critical IT
                     systems, either through penetration testing or other means.
                     Network services should be reviewed and those that are not
                     necessary should be disabled. Appropriate countermeasures
                     should be applied to those services that are necessary, such
                     as “tcp wrappers” to restrict and log host access when using
                     the finger network service. Components should ensure future
                     penetration testing includes the identification of exploitable
                     network services as a major focus of the testing. The IMSS
                     will utilize its internal database to track the resolution of this
                     vulnerability. In addition, for those systems that have not
                     undergone an independent review, the IMSS will make those
                     systems a priority for an independent review during the next
                     12 months.

Vulnerability #12:   Lack of warning banners.
Threat:              All threat areas could exploit this vulnerability.
Discussion:          Components of seven of the critical SBU IT assets did not
                     display warning banners before the system sign-on screen.


Risk Rating:         Low
Mitigation Action:   Ensure all critical IT assets display warning banners before the
                     system sign-on screen. The IMSS will utilize its internal
                     database to track the resolution of this vulnerability.


   Source: Justice Management Division’s March 2002 Vulnerability Assessment




                                          - 89 -
                                                                 APPENDIX 9

 FLOW OF INFORMATION WITH THE DEPARTMENT OF
            STATE AND US CUSTOMS




Source: Justice Management Division’s November 13, 2001, Draft Information Sharing
Memorandum

                                    - 90 -
                                                     APPENDIX 10

    DEPARTMENT ENTITIES THAT HAD CIP TASK FORCE
                     MEMBERS

Law Enforcement:
     Criminal Division Litigation
     Criminal Division Computer Crime
     Drug Enforcement Agency
     INS
     Bureau of Prisons
     United States Marshall Service
     FBI
     Interpol
     Executive Office for United States Attorneys

Litigating Divisions:
       Civil Rights
       Antitrust
       Environmental and Natural Resource Division
       Tax Division
       Civil Division

Other:
     Office of the Deputy Attorney General
     Office of the Pardon Attorney
     Office of Information and Privacy
     Solicitor General
     Associate Attorney General
     Office of Intelligence Policy and Review
     Executive Office for United States Trustees
     Security and Emergency Planning Staff
     Office of Justice Programs
     JMD – Systems Technology Staff
     JMD – Personnel Staff
     Office of Professional Responsibility




                                   - 91 -
                           APPENDIX 11


JMD’S RESPONSE TO THE DRAFT REPORT




            - 92 -
- 93 -
- 94 -
- 95 -
- 96 -
- 97 -
- 98 -
- 99 -
- 100 -
                                                            APPENDIX 12

     OIG, AUDIT DIVISION ANALYSES AND SUMMARY OF
           ACTIONS NECESSARY TO CLOSE REPORT


     In its response to the draft report, JMD agreed with all of our audit
recommendations. JMD’s response to the draft audit report is included as
Appendix 11 of this final report.

Recommendation number:

1.   Resolved. This recommendation is resolved based on the JMD’s plans
     to use the Automated Security Self-Evaluation and Remedial Tracking
     (ASSERT) tool to track activities to accredit IT systems. This
     recommendation can be closed after our review of documentation
     demonstrating that the ASSERT tool is being used to track risk
     mitigation activities for classified systems.

2.   Resolved. This recommendation is resolved based on the JMD’s plans
     to develop multi-year funding plans following the completion of Step 2
     of Project Matrix and the implementation of the ASSERT tool to track
     vulnerabilities, mitigation actions and resources for classified and
     unclassified systems. This recommendation can be closed after our
     review of the multi-year funding plan linked to identified vulnerabilities
     for the critical assets.

3.   Resolved. This recommendation is resolved based on the JMD’s plans
     to use the ASSERT tool to monitor components’ progress in mitigating
     IT vulnerabilities on a component-by-component basis. This
     recommendation can be closed after our review of documentation
     demonstrating that the ASSERT tool is being used to track IT
     vulnerabilities on a component-by-component basis.

4.   Resolved. This recommendation is resolved based on the JMD’s plans
     to establish a “help desk” dedicated to assisting and tracking the
     development of certification and accreditation documents by
     components for IT systems. This recommendation can be closed after
     our review of documentation demonstrating that the status of
     certification and accreditation for critical IT systems is being monitored
     at least quarterly.


5.   Resolved. This recommendation is resolved based on the JMD’s plans
     to use the ASSERT tool in accordance with OMB guidance and modify,

                                   - 101 -
      if required to include fields for identified vulnerabilities, the source of
      the vulnerabilities, performance measures to track progress in
      mitigating vulnerabilities, and resources required. This
      recommendation can be closed after our review of documentation
      demonstrating that the ASSERT tool captures POA&M data and
      (1) clearly addresses the vulnerabilities identified from vulnerability
      assessments, (2) includes the source of the vulnerabilities,
      (3) describes the performance measures used to track progress in
      mitigating weaknesses, and (4) identifies resources required for
      implementing risk mitigation activities for each identified vulnerability.

6.    Resolved. This recommendation is resolved based on the JMD’s plans
      to review the vulnerability assessment of the IT systems that were
      added to the list to ensure they meet the requirements of PDD-63 and
      the ITSS’s plans to assist the components in developing risk mitigation
      plans. This recommendation can be closed after our review of the
      vulnerability assessments and risk mitigation plans for assets newly
      added to the MEI or documentation indicating that those assets are no
      longer critical.

7.    Resolved. This recommendation is resolved based on the JMD’s
      statement that according to the results of Step 1 of Project Matrix, the
      ATF did not have any nationally critical functions, services, or
      products. This recommendation can be closed after our review of
      documentation for the results of Step 1 of Project Matrix
      demonstrating that ATF had no critical functions, services, or products.

8.    Resolved. This recommendation is resolved based on the JMD’s plans
      to develop a work plan for attaining full operational capability. This
      recommendation can be closed after our review of the plan for
      attaining full operational capability.

9.    Resolved. This recommendation is resolved based on the JMD’s
      statement that it has developed a draft standard for incident response,
      which includes requirements for secure, timely, and effective
      communication channels. This recommendation can be closed after
      our review of a copy of the final standard and documentation of its
      implementation.

10.   Resolved. This recommendation is resolved based on the JMD’s
      statements that it currently reports incidents and conducts liaison with
      the FedCIRC and the NIPC. Additionally, JMD indicated that the
      DOJCERT will contact the FBI and obtain a point of contact for incident
      response-related actions in the Strategic Information Operations
      Center. This recommendation can be closed after our review of a list
      of liaisons JMD established with FedCIRC, the NIPC, and the Strategic

                                     - 102 -
      Information Operations Center. We also request for review a copy of
      the JMD’s plans to ensure the effectiveness of the liaisons established.

11.   Resolved. This recommendation is resolved based on the JMD’s plans
      to have the DOJCERT and the Cyber Defense Operations Project Team
      review the components’ incident response plans and reports. In
      addition, plans that the ITSS C&A “help desk” will provide assistance
      to the components in developing their incident response procedures
      and plans. Additionally, JMD intends to use test cases for reporting
      incidents to verify reporting of incidents. This recommendation can be
      closed after our review of documentation demonstrating the
      DOJCERT’s and the Cyber Defense Operations Project Team’s review of
      components incident response plans and reports.

12.   Resolved. This recommendation is resolved based on the JMD’s
      statement that DOJCERT currently conducts analysis of incidents and
      provides reports on the nature, frequency, category and remediation
      actions taken and performs analysis to identify potential trends and
      systemic weaknesses. This recommendation can be closed after our
      review of the final technical standard and template, the most recently
      completed examples of DOJCERT analysis and reports on incidents,
      and the most recently completed analysis of trends and weaknesses.
      We also would like to review the first evaluation by ITSS using test
      cases developed from FedCIRC reporting requirements.

13.   Resolved. (a) This recommendation is resolved based on the JMD’s
      statement and that JMD intends to verify DOJCERT’s reporting process
      using test cases. This recommendation can be closed after our review
      of documentation demonstrating DOJCERT’s reporting process
      resulting from test cases.

      (b) This recommendation is resolved based on the JMD’s plans to use
      incidents reports and analysis provided by DOJCERT to develop a list of
      vulnerabilities of the critical IT assets. ITSS will review the Exhibit
      300’s for the critical IT systems and ensure that incident-related
      vulnerabilities are addressed. This recommendation can be closed
      after our review of evidence demonstrating that results of incident
      report and analysis provided by DOJCERT are used in the budget
      process to support and justify future CIP resource expenditures.

14.   Resolved. This recommendation is resolved based on the JMD’s plans
      for the DOJCERT, Cyber Defense Project Team, and C&A “help desk” to
      provide assistance to the components in developing their internal
      incident response procedures in the form of standards, template, and
      document review with comments. This recommendation can be closed
      after our review of documentation demonstrating that ITSS has copies

                                   - 103 -
      of the internal response procedures and a list of appropriate
      individuals for reporting incidents to the DOJCERT.

15.   Resolved. This recommendation is resolved based on the JMD’s plans
      to develop an incident response plan template. In addition, the JMD
      plans for the DOJCERT and Cyber Defense Operations Project Team to
      assist the components in testing incident response plans. This
      recommendation can be closed after our review of documentation
      demonstrating tests of response plans.

16.   Resolved. This recommendation is resolved based on the JMD’s plans
      to review certification and accreditation documents to determine
      whether the system has a contingency plan, as critical assets are
      identified after the conclusion of Step 2 Project Matrix. This
      recommendation can be closed after our review of contingency plans
      for the critical systems.

17.   Resolved. This recommendation is resolved based on the JMD’s plans
      to review contingency plans as they are identified during Step 2 of
      Project Matrix, maintain a spreadsheet on the status of the
      contingency plans, and update the data quarterly. This
      recommendation can be closed after our review of documentation
      demonstrating quarterly monitoring of contingency planning.

18.   Resolved. This recommendation is resolved based on the JMD’s plans
      to replace DOJ Order 2640.2D with DOJ Order 2640.2E and include
      requirements of the new order in the contingency plan standard and
      template. Additionally, the JMD intends to have the contingency plans
      reviewed at the C&A “help desk” and to use test cases to verify that
      contingency plans contain the required elements. This
      recommendation can be closed after our review of documentation
      demonstrating that contingency plans for critical IT assets address all
      required elements.

19.   Resolved. This recommendation is resolved based on the JMD’s plans
      to develop a template for contingency plans. The template is expected
      to include a signature page for the component approving officials and
      ITSS will track the validation through the ASSERT tool. This
      recommendation can be closed after our review of documentation
      demonstrating that the contingency plans for the critical IT assets
      have been approved by the appropriate officials.

20.   Resolved. This recommendation is resolved based on the JMD’s plans
      to develop a schedule for the testing of contingency plans for all
      critical IT systems and to monitor those tests. This recommendation
      can be closed when receive documentation demonstrating that the
      contingency plans for the critical IT assets have been tested.
                                   - 104 -
21.   Resolved. This recommendation is resolved based on the JMD’s plans
      to develop and maintain a database to track liaison and interagency
      relationships for critical IT systems. This recommendation can be
      closed after our review of documentation demonstrating that a
      database has been developed to track liaison and interagency
      relationships and has been populated.

22.   Resolved. This recommendation is resolved based on the JMD’s plans
      to request that components review their service level agreements or
      Memorandums of Understanding and contact other agencies that
      indicate the support provided by the Department is critical to their
      operation. Additionally, Step 2 of Project Matrix will identify agencies
      that have critical assets that are connected to Department’s systems.
      This recommendation can be closed after our review of documentation
      demonstrating that the Department has identified which of its assets
      are critical to other agencies.

23.   Resolved. This recommendation is resolved based on the JMD’s plans
      to develop and maintain a database to track liaison and interagency
      relationships for critical IT systems. This recommendation can be
      closed after our review of documentation demonstrating that a
      database for tracking liaison and interagency relationships for critical
      IT systems have been developed and populated.

24.   Resolved. This recommendation is resolved based on the JMD’s
      statement that it has established the Department’s Information
      Technology Security Council (ITSC). The ITSC will be used to address
      CIP issues. This recommendation can be closed after our review of
      documentation demonstrating that the ITSC is addressing CIP issues.

25.   Resolved. This recommendation is resolved based on the JMD’s plans
      to complete an assessment of the linkage between budgetary and
      personnel shortfall after the completion of Project Matrix and
      consequently to the Department’s critical infrastructure weaknesses.
      This recommendation can be closed after our review of documentation
      demonstrating that JMD has completed an assessment of the linkages
      between budgetary and personnel shortfalls and critical infrastructure
      weaknesses.

26.   Resolved. This recommendation is resolved based on the JMD’s
      statement that it has hired an individual from the Cyber Corps
      Program and is in the process of hiring another. Both of the
      Cyber Corps individuals will be part of the ITSS and their duties will
      support parts of the critical infrastructure program, such as developing
      templates for risk assessments. Additionally, as part of its retention
      program of security professionals, ITSS sponsors the departments
      seminar and testing for the Certified Information System Security
                                   - 105 -
Professional program. A formal training and retention plan is being
developed by the IT Security Employee Services Project Team. This
recommendation can be closed after our review of a copy of the formal
training and retention plan.




                            - 106 -
